<html>
<title> - HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2009 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED TENTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



                         [H.A.S.C. No. 110-125]
 
                                HEARING
                                   ON
                   NATIONAL DEFENSE AUTHORIZATION ACT
                          FOR FISCAL YEAR 2009
                                  AND
              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS
                               BEFORE THE
                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

TERRORISM, UNCONVENTIONAL THREATS AND CAPABILITIES SUBCOMMITTEE HEARING

                                   ON

 BUDGET REQUEST FOR U.S. SPECIAL OPERATIONS COMMAND AND U.S. NORTHERN 
                                COMMAND

                               __________

                              HEARING HELD

                             MARCH 5, 2008

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

                   U.S. GOVERNMENT PRINTING OFFICE
43-668 PDF                  WASHINGTON : 2009
----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

  


           TERRORISM AND UNCONVENTIONAL THREATS SUBCOMMITTEE

                    ADAM SMITH, Washington, Chairman
MIKE McINTYRE, North Carolina        MAC THORNBERRY, Texas
ROBERT ANDREWS, New Jersey           ROBIN HAYES, North Carolina
JIM COOPER, Tennessee                JOHN KLINE, Minnesota
JIM MARSHALL, Georgia                THELMA DRAKE, Virginia
MARK E. UDALL, Colorado              K. MICHAEL CONAWAY, Texas
BRAD ELLSWORTH, Indiana              JIM SAXTON, New Jersey
KIRSTEN E. GILLIBRAND, New York      BILL SHUSTER, Pennsylvania
KATHY CASTOR, Florida
              William H. Natter, Professional Staff Member
               Alex Kugajevsky, Professional Staff Member
                     Andrew Tabler, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2008

                                                                   Page

Hearing:

Wednesday, March 5, 2008, Fiscal Year 2009 National Defense 
  Authorization Act--Budget Request for U.S. Special Operations 
  Command and U.S. Northern Command..............................     1

Appendix:

Wednesday, March 5, 2008.........................................    19
                              ----------                              

                        WEDNESDAY, MARCH 5, 2008
FISCAL YEAR 2009 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST FOR 
       U.S. SPECIAL OPERATIONS COMMAND AND U.S. NORTHERN COMMAND
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Chairman, 
  Terrorism, Unconventional Threats and Capabilities Subcommittee     1
Thornberry, Hon. Mac, a Representative from Texas, Ranking 
  Member, Terrorism, Unconventional Threats and Capabilities 
  Subcommittee...................................................     2

                               WITNESSES

Olson, Adm. Eric T., USN, Commander, U.S. Special Operations 
  Command, U.S. Navy.............................................     3
Renuart, Gen. Victor E., Jr., USAF, Commander, NORAD/U.S. 
  Northern Command...............................................     3

                                APPENDIX

Prepared Statements:

    Olson, Adm. Eric T...........................................    25
    Renuart, Gen. Victor E., Jr..................................    49
    Smith, Hon. Adam.............................................    23

Documents Submitted for the Record:

    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:

    Mr. Smith....................................................    81
    Mr. Thornberry...............................................    97


FISCAL YEAR 2009 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST FOR 
       U.S. SPECIAL OPERATIONS COMMAND AND U.S. NORTHERN COMMAND

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
        Terrorism, Unconventional Threats and Capabilities 
                                              Subcommittee,
                          Washington, DC, Wednesday, March 5, 2008.
    The subcommittee met, pursuant to call, at 1:32 p.m., in 
room 2118, Rayburn House Office Building, Hon. Adam Smith 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM 
  WASHINGTON, CHAIRMAN, TERRORISM, UNCONVENTIONAL THREATS AND 
                   CAPABILITIES SUBCOMMITTEE

    Mr. Smith. We will go ahead and get started, call the 
committee to order.
    We never know when votes are going to interrupt us, but we 
are certain that they will. I am sure more members will show up 
as we get going here, but we will go ahead and get started.
    I want to welcome our witnesses.
    Admiral Olson, the commander of Special Operations Command, 
thank you. It has been, as I noted talking to you earlier, a 
long day for you. It started in front of the committee at 10 
a.m. We appreciate you being here, both for the full committee 
and for our subcommittee, and look forward to your testimony.
    And, General Renuart, thank you also, head of Northern 
Command (NORTHCOM); look forward to your testimony and to your 
comments.
    I just have a brief opening statement, and then we will 
turn it over to Mr. Thornberry for his opening remarks.
    I want to welcome both of you gentlemen here today and 
appreciate your service. I think both of your areas are 
incredibly important to our national security and to this 
committee.
    Focusing first on Special Operations Command (SOCOM), the 
demands that have been placed on our special operators since 9/
11 have been enormous, more than I think any of us have 
imagined, and you have responded terrifically in every 
instance, and we appreciate that and all those who serve under 
you. They are a doing a fabulous job for us in Iraq and 
Afghanistan and in dozens of other places that many Americans 
are unaware of.
    And we, on this committee, firmly believe that going 
forward the Special Operations Command will be a key piece of 
the global war on terror, if not the key piece. We envision the 
future is going to be about counterinsurgency, irregular 
warfare, fighting off the ideology of al Qaeda in all of the 
places of the world where it is at, and nobody is better 
qualified to do that kind of counterinsurgency, working with 
local populations than our special operators, and we want to 
give you every bit of assistance that you need to get that job 
done.
    And as we look at the budget, one of the things that we are 
really going to focus on in this committee is the seven percent 
reduction in SOCOM's budget for this cycle over last.
    I know, Admiral, you and I have spoken about that, and you 
certainly respect the choices of the Pentagon, but we here on 
the committee are going to advocate for an increase in that and 
try to get you the help you need in the places you need.
    Also, we had a meeting this morning with the general in 
charge of the Air Force, and we are very much aware of the 
airframe concerns, particularly on transportation, how SOCOM 
needs to get more forces in those areas, and we want to try to 
help with that as well. If we are going to ask this much of our 
special operators, we need to make sure that they have the 
equipment and the support that they need, and we are going to 
need to do that.
    And we are also very interested to hear from General 
Renuart today about NORTHCOM, our most recently stood up 
command, at least until the African Command gets stood up, and 
the challenges that you have faced since 2002 in protecting our 
homeland. And I think the thing that we are most interested in 
that area is how NORTHCOM--and you and I have had the 
opportunity to speak about this before--how you have merged in 
with all the other different pieces.
    In that same timeframe, of course, we created the 
Department of Homeland Security, which has responsibilities in 
those areas also, and then there are a variety of other areas, 
both within the Pentagon and without, that you have to work 
with, and I am curious how that cooperation is progressing and 
what we could do to help you in those areas.
    With that, I will turn it over to the ranking member in 
this committee, Mr. Thornberry, for any opening remarks he has, 
and I would also say that any member of the committee can 
submit opening remarks for the record. I will be doing that 
myself. Thank you.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 23.]

STATEMENT OF HON. MAC THORNBERRY, A REPRESENTATIVE FROM TEXAS, 
     RANKING MEMBER, TERRORISM, UNCONVENTIONAL THREATS AND 
                   CAPABILITIES SUBCOMMITTEE

    Mr. Thornberry. Thank you, Mr. Chairman.
    I agree with your opening comments, and I would just add, 
as I sit here and think about the responsibilities of these two 
witnesses, I am struck by the fact that after September 11 this 
country, in many ways, reacted, whether it is airport security 
or whether it was our actions in Afghanistan, whether it was 
other things we have done to protect the homeland. But as we go 
along we refine those actions. We try to be smarter about what 
we do.
    I think that is where we are in fighting this global 
Islamist terrorist threat. I think that is where we are when it 
comes to protecting the homeland. How do we need to change, 
restructure, refocus, improve our abilities as we go ahead? 
Those are things I think I am most interested in, and, 
certainly, these two witnesses can help shed a lot of light on 
that.
    So I look forward to their testimony and yield back.
    Mr. Smith. Thank you very much, Mr. Thornberry.
    And as I mentioned, all members can submit opening 
statements for the record.
    With that, I will turn it over to Admiral Olson for his 
opening statement.

 STATEMENT OF ADM. ERIC T. OLSON, USN, COMMANDER, U.S. SPECIAL 
                 OPERATIONS COMMAND, U.S. NAVY

    Admiral Olson. Thank you, Mr. Chairman, Mr. Thornberry, Mr. 
McIntyre.
    With your permission, I will submit my written statement 
for the record and not repeat my opening statements from the 
earlier session. I would like to highlight a few things, 
though.
    First, I would like to thank this committee for all its 
work and all of its success in support of our needs over the 
last few years. I think that nobody understands Special 
Operations to the extent that you do. That is very helpful to 
us in our discussions.
    And I reiterate how honored I am to be the one who sits 
before this committee today representing the 54,000 active and 
reserve soldiers, sailors, airmen, Marines and civilians who 
are assigned to the Special Operations Command, many of whom 
are away from home and many of whom are engaged in some very 
important and violent activities. I remain in awe of their 
dedication and courage, and they demonstrate it every day.
    I would like to reiterate my conviction that the 
expectations on this force continue to be very high, as you 
stated, and that I certainly do not expect that the demand for 
this force will decrease, no matter what the circumstances in 
Iraq or Afghanistan relative to a drawdown of conventional 
forces. Most of the world is stating a deficit of special 
operations forces in their theatre, and there will be a 
responsibility, I believe, on behalf of my command to return to 
some of those places in which we have been underrepresented as 
we have surged into Iraq and Afghanistan with 80 percent of our 
deployed force over the last few years.
    Thank you, sir.
    [The prepared statement of Admiral Olson can be found in 
the Appendix on page 25.]
    Mr. Smith. Thank you, Admiral Olson.
    General.

  STATEMENT OF GEN. VICTOR E. RENUART, JR., USAF, COMMANDER, 
                  NORAD/U.S. NORTHERN COMMAND

    General Renuart. Mr. Chairman, thank you for the 
opportunity to be here.
    Mr. Thornberry, Mr. McIntyre, it is good to be here in 
front of this committee.
    It is a committee that is focused, as Admiral Olson, on 
support to the special operations but also one that is focused 
very clearly and very directly on terrorist threat to our 
homeland, and that is one, obviously, that I have a great deal 
of interest in.
    It is really my privilege to lead the men and women, both 
of United States Northern Command and North American Aerospace 
Defense Command, and it is a treat to sit here next to my 
friend, Eric Olson, to be able to talk about those areas of 
common interest that we have.
    We really do have a unique relationship with U.S. Special 
Operations Command. We continually watch and assess those 
potential threats to the homeland. In some of my comments 
later, I will talk about a concept of layered defense, and, 
really, Eric's team is that away layer out there, making sure 
that we can reach out and touch those potential threats to the 
homeland before they reach our shores, but we have to be ready 
in case they do.
    We collaborate on a variety of plans, on exercises and on 
operations with U.S. Special Operations Command. Most notably, 
we have made good progress in the maritime domain, and it is an 
area that both the Department of Homeland Security and U.S. 
Northern Command pay close attention to each day.
    As commander of U.S. NORTHCOM, I am assigned, really, two 
distinct and critical missions: That to defend our homeland 
from attack and then to support the Nation with those unique 
capabilities that Department of Defense (DOD) can bring in a 
time of crisis. And while we certainly pay very close attention 
to homeland defense, it is hard to prioritize either mission, 
one over the other, because they can happen, either one, almost 
unannounced, and so we have to be prepared in every case.
    Part of the team that does that is an integrated team of 
National Guardsmen, Reservists and active duty, and I am 
pleased to have my National Guard advisor to the commander, 
Major General Steve Villacorta here, seated behind me, as well 
as our other important team member of the National Guard 
Bureau, Brigadier General Fick is here representing the 
National Guard Bureau as part of our delegation today.
    As always, the men and women who defend our Nation are 
predominantly our young enlisted corps who put on the cloth of 
our country and serve selflessly around the world, and I am 
pleased to have them represented by our command sergeant, Major 
Dan Wood.
    Final point I would like to make for the record is the 
burden that we place on our families and the demands that we 
ask of our families, and no one has paid more of that price 
than my own wife. I am pleased to have her with me here today, 
seated in the second row, to represent the families of so many 
that are separated from their loved ones on a day-to-day basis.
    Mr. Chairman, our missions are especially meaningful, 
because really nothing is more important than keeping our 
citizens safe. It is your families and our families that we pay 
close attention to. This requires a culture of anticipation, 
and we understand that all too well and understand also that to 
the citizens of our country failure is just not an option.
    After I took command about a year ago we rewrote our 
mission statement soon after that point and added the word, 
``anticipate,'' to our mission statement. It may seem like a 
small change, but in fact the ability to reach out and look 
into the future as best we can and anticipate the kinds of 
threats that may affect us is critical to our mission. And over 
the past year, we have substantially increased our focus on 
planning, integrated planning, on training and on readiness.
    We have updated our homeland defense and civil support 
plans. We have ensured our plans are consistent with the 
national response framework, with the Department of Homeland 
Security (DHS) support plans and all of those 15 national 
planning scenarios. All of this is done in close partnership 
with the Department of Homeland Security's Incident Management 
Planning Team and our friends in Federal Emergency Management 
Agency (FEMA) and many other Federal agencies.
    We successfully completed the maritime domain awareness 
concept of operations and the interagency investment strategy 
to support that. These developments improve situation awareness 
and provide a way ahead to rapidly assess and respond to 
maritime threats.
    We train with over 50 federal, state and local partners at 
all operational levels, and just as a couple of examples, we 
have exercised our chemical, biological, radiological, nuclear 
and high-yield explosive Consequence Management Response Force 
during our exercise, Ardent Sentry, last May, and we will do 
that again this year.
    From an operational perspective, we also incorporated this 
culture of anticipation into our daily battle rhythm. When 
NORTHCOM support is needed, we are ready.
    Specifically, we monitor and assess and evaluate 12 to 20 
potentially dangerous events affecting the homeland every day. 
I would use an example, the loss of power in south Florida just 
a week ago. We were in close contact with the state to ensure 
that if Federal military support was needed, we knew what it 
was, where it was and how we would get it to the citizens of 
south Florida should it be required. Fortunately, the state was 
able to manage the challenge, but we were ready.
    Every day, we see the benefits of this kind of coordination 
in so many ways. On the counterterrorism scene, we work side by 
side with the Federal Bureau of Investigation (FBI) and the 
Joint Terrorism Task Force and in the National Counterterrorism 
Center to ensure we all have the same threat picture and that 
we share that information collaboratively across all of the 
players, whether they be law enforcement or even special 
operations, should that be required.
    We have built a high degree of confidence among our law 
enforcement partners, and I am happy with the continued 
progress that we make.
    We also rely on the information and expertise provided by 
our Joint Interagency Coordination Group. This group integrates 
and synchronizes the activities of multiple civil, federal, 
state and private-sector organizations. It includes 60 full-
time individuals, professionals from their individual 
communities, from 40 different Federal and DOD-supported 
agencies, as well as the private sector. They all live in our 
headquarters, they work in our headquarters, and they are 
integrated into our planning and operational teams.
    Mr. Chairman, before I close, I would like to briefly 
comment on the final report of the Commission on the National 
Guard and Reserves. It is clear that Chairman Punaro and his 
team have done a great deal of work, and a great deal of effort 
went into that report. In conjunction with the Department of 
Defense, we are continuing a very detailed, thorough review of 
each of those recommendations, and the secretary is committed 
to provide Congress a thorough assessment of that report.
    I agree with the commission that we need to increase our 
support to our Nation's active and reserve components to build 
and enhance that chemical-biological capability that I 
mentioned just earlier, and I am leading the DOD charge to do 
just that. And I have received strong support from the chairman 
and the secretary.
    My integrated priority list to the secretary supports 
recapitalizing and equipping our National Guard to support 
those domestic missions, and I firmly believe that our Nation 
needs a strong, well-equipped guard and reserve force.
    That said, some of the findings in the report are a bit 
incomplete and, in some cases, misleading. I disagree with the 
commission's assessment that there is an appalling gap in our 
capability to respond to a Weapons of Mass Destruction (WMD) 
attack. Let me assure you and the members of the committee, 
there are plans and a range of state and Federal capabilities 
in place today that are ready to respond.
    The commission also suggests that governors should have 
command and control of Title 10 forces in certain situations. I 
disagree. I believe that the current provisions and legislation 
and law allow the governors to have absolutely all the 
authority to direct operations in their states, and we are 
supportive of that.
    Upon taking command, I made relationship-building with the 
governors and state adjutants general one of my top priorities, 
and I am proud to report that today I have visited the majority 
of states in our country, and I have met with over 19 governors 
and lieutenant governors and nearly every state adjutant 
general and most of their emergency management directors.
    My message to the governors is clear and consistent: ``We 
are here to support you, nothing more, nothing less.'' These 
governors and lieutenant governors who I talk to are confident 
that their adjutant generals lead state efforts in times of 
crisis, and they know they can count on NORTHCOM for support 
when it is requested.
    I believe it is important to ask the question, are the 
governors receiving the support they need.
    Let me also set the record straight on the commission's 
comments regarding the need for state level experience within 
NORTHCOM. Today, 46 percent of my staff has National Guard and 
Reserve experience. Six of my 13 general and flag officers are 
Guardsmen or Reservists, and I rely on them for advice every 
day, and they are an integral part of my decision team.
    Finally, we are doubling the number of full-time positions 
for the Guard and Reserves in our headquarters. I think these 
statistics are good, we are making them better, and they stand 
on their own two feet.
    Mr. Chairman, in closing, our mission is to protect our 
fellow citizens and our families and to protect the freedoms 
that are the foundation of our way of life. By anticipating 
threats, exercising defense capabilities and increasing 
information sharing with our partners, we strengthen our 
ability to protect you and your families and all of our homes.
    Thanks very much for the opportunity to appear today, and I 
look forward to your questions.
    [The prepared statement of General Renuart can be found in 
the Appendix on page 49.]
    Mr. Smith. Thank you very much.
    Admiral Olson, as I mentioned, I met with General Wurster 
this morning, talking about some of your needs in terms of air 
platforms, and I know there are needs there. Could you give us 
a little bit of specifics in terms of Intelligence Surveillance 
Reconnaissance (ISR) and also transport and, I guess, an 
offensive capability to the transport as well? What airframes 
do you need, both for ISR and to be able to transport and 
protect your troops?
    And if you could, what portion of that do you see coming in 
the supplemental or a supplemental versus in the rest of the 
budget? It seems that the supplemental has become very, very 
important to funding your operations, and I wonder if you could 
break those two pieces down for us. What do you need, and which 
budget do you see it coming in?
    Admiral Olson. Thank you, Mr. Chairman. Our most immediate 
acquisition needs are recapitalization of our C-130 fleet and 
increased ISR capability and capacity, followed very closely by 
our V-22 acceleration effort.
    We have 37 C-130 platforms that require recapitalization 
soon. The average age of many of these is close to 40 years 
old. They are really in three types. There is an early model 
penetration aircraft, a tanker aircraft and the AC-130 gunship 
model, which in total, again, add up to 37.
    We are facing a degradation of the fleet because of center 
wing box problems in addition to advancing age. We are reaching 
the point where investing in upgrading those airplanes or 
sustaining those airplanes makes less sense than replacing 
them. So that is our number one pure acquisition need.
    The ISR question is a little bit more complex, because it 
is not just about buying platforms. It is a system of 
capabilities that has to come together to produce real 
capability where we need it. There is the recruiting of the 
right people to fly and analyze the product of overhead 
systems, and ISR also includes maritime systems and ground 
systems.
    There are airspace issues for training the aircraft, there 
are schoolhouse pipeline issues, there are bandwidth issues, 
there are Military Construction (MILCON) and ramp space issues, 
all of which have to be carefully coordinated and developed 
simultaneously in order to optimize the production of increased 
capability.
    So we depend on a mixed fleet of manned and unmanned 
systems, both at the operational level and at the tactical 
level for both man hunting kinds of missions and force 
protection kinds of missions. I can provide you separately all 
of those numbers----
    Mr. Smith. Yes. We would be very interested in that.
    Admiral Olson [continuing]. That add up to that. But it is 
a matrix kind of a format. If you get more of this, then you 
need more of that kind of format because of the way that this 
has to be built together to produce the full capability.
    And, third, the V-22 fleet, our venerable Pave Low 
helicopters, the MH-53s. The last one of 31 that we had 
operational is coming offline September 30 of this year. They 
have reached the end of their useful life, and accelerating the 
V-22 in order to replace some of that capability is an urgent 
need for us.
    We have been talking carefully with the Air Force about 
this. The Air Force has included in its supplemental request 
enough funds to purchase an acceleration of V-22s. We have 
included in our supplemental request enough funds to nearly 
match that with respect to special operations modifications.
    You asked specifically about how dependent we are becoming 
on the supplemental or how much the supplemental will 
contribute to this. About two-thirds of our supplemental budget 
over the last few years has gone to operations and maintenance 
costs, about one-third to the urgent procurement to fund those 
items most necessary and engaged in the current conflict.
    I don't believe that there will be a decrease in the 
operations and maintenance requirement anytime soon. My budget 
request, although down 7 percent from fiscal year 2008, given 
the top line restrictions that we operated under, does include 
a $400 million increase in O&M, and that is on top of the 
supplemental that we have come to expect in 2008 and 2009.
    So I believe that our supplemental is now necessary for the 
continued business of special operations, certainly, now in 
Iraq and Afghanistan and the broader Central Command (CENTCOM) 
region but in the future more so in terms of funding our global 
activities.
    Mr. Smith. Thank you.
    General Renuart, if you could help me out a little bit in 
terms of NORTHCOM's responsibilities in anticipating threats, 
as you describe. I guess, mentally, I am dividing this up 
between, sort of, specific threats and then planning against 
general threats. How closely do you work with the intel 
community, how good is that relationship on a daily basis?
    You know, you receive specific threats and you are 
responding to a specific threat, whether it is a person of 
interest in the U.S. or a specific target that is threatened 
and what your role at NORTHCOM is in responding to those 
threats versus just protecting what we know to be likely 
targets. Some of those are private facilities as well as 
public.
    If you could, sort of, explain in those two areas what your 
responsibilities and challenges are.
    General Renuart. Mr. Chairman, thank you, I would be happy 
to. And, really, your question gets to the construct of 
integrating with our partners, both in terms of developing 
information and then planning for potential activities.
    One of the comments out of the 9/11 Commission and one of 
the comments out of post-Katrina lessons learned that was 
common, that affect us, was there was not sufficient 
collaborative planning among all the partners to understand the 
nature of the threat and then to act on it if it in fact 
occurred.
    We have worked very hard on that construct of anticipation 
and of collaboration with our intelligence partners. I 
mentioned we are integrated into the National Counterterrorism 
Center and integrated in with the FBI and the Joint Terrorism 
Task Force.
    But it really goes beyond that. Our day-to-day, our intel 
function collaborates with all of the intelligence community, 
focused on threats that may be far away from our home and how 
do they potentially work their way to us in the homeland.
    As you know, we have some very carefully worded 
constitutional limitations on how we collect intelligence, if 
we can collect intelligence, in the homeland. Our role is 
really to provide assistance to the law enforcement agencies, 
but we have built a level of confidence with each of those that 
they share with us freely within the constraints of the 
Constitution the information that may help us deter and detect 
a threat that could be coming from outside the country.
    Our focus is on the terrorism nexus, but law enforcement 
partners have the focus inside the country on acting the 
potential terrorist leads that we might have at home.
    I would use examples that I think have been made public in 
the last year or two: A cell that was arrested in the vicinity 
of Fort Dix here on the East Coast, some individuals that were 
arrested in the vicinity of Charleston Air Force Base a couple 
months ago.
    We were aware that the FBI was working that. We shared 
information that came from outside our shores that pointed to a 
terrorist nexus here in the country, and then we were 
collaborative partners with the FBI as they began to develop 
that information. That relationship for us has proven to be a 
very strong one, one I am very pleased with.
    Having said that, we have got to be able to take 
information and then prepare ourselves at home for the 
consequences if one of these threats comes true. That, too, 
relies on a very close collaborative effort with the Department 
of Homeland Security, certainly with the law enforcement 
partners, with DHS' principal military arm, the U.S. Coast 
Guard, and we are the DOD lead element for the contingency 
planning portion of the integrated planning team that DHS has 
formed.
    Now, we work on a day-to-day basis. We have weekly video 
tele-conferences (VTCs), planning VTCs with each of those 
organizations so that we are both equally abreast of both 
threat information and then the contingency planning that would 
be necessary to respond.
    So I think we are, in my view, leap years ahead--light 
years ahead, excuse me, of where we were even after Katrina. We 
still have work to do, and we will continue to keep those bonds 
close, but I think if you were to ask any of those agencies in 
the government, they would identify their collaborative with 
NORTHCOM as really one of the highlights.
    Mr. Smith. Thank you very much. I have other questions, but 
I will yield to other members.
    Mr. Thornberry.
    Mr. Thornberry. Mr. Chairman, I would yield to other 
members at this time and reserve my questions for later.
    Mr. Smith. Thank you.
    Mr. McIntyre.
    Mr. McIntyre. Thank you very much.
    Thanks to both of you gentlemen.
    Thank you for yielding the additional time.
    As I mentioned in this morning's full committee hearing, 
Admiral Olson, I thoroughly enjoyed my recent trip down to 
Tampa a couple of weeks ago. Thank you for your wonderful 
hospitality you and your lovely wife extended, and thank you 
for the excellent job that you are doing. I was very impressed 
with what I saw at U.S. Special Operations Command at MacDill 
and with your work worldwide, literally.
    I also greatly appreciate the work that you do, General, 
and thank you for helping us have what we need here in the 
Northern Command.
    I wanted to ask you each just a couple of questions that I 
think may help clarify some things.
    General, when you mentioned a minute about your 
constitutional requirements or limits on your actions, what 
would be your understanding of the process needed to flow 
active military personnel if there were a situation that we had 
to potential waive posse comitatus and have to bring in the 
military? I know I get asked that question a lot back home from 
folks who have concerns. Can you explain to us what is your 
understanding if such a scenario would entail.
    General Renuart. Yes, sir, I would be happy to.
    First, the provisions of the Posse Comitatus Act cannot be 
waived. There would have to be an exclusion provided or an 
exemption provided by the President based on an assessment of 
whatever the event may be, and I would go back in history to 
the Los Angeles riots as really the last time that the 
President chose to invoke that authority, as I recall.
    And the process would be, obviously, a concern on the part 
of the state that an event like that were occurring or a very 
unique--for example, the theft of a nuclear weapon, which had 
such substantial national impact that the President would feel 
strongly that the use of the military was the best way to work 
and solve that problem.
    But that authority would be provided to us by the 
President. It would include the exclusion remarks or the 
exclusion authorities in the designation of event and the 
authority given to the secretary to deploy U.S. military 
forces. The secretary would ask us what forces we had 
positioned, ready to go, and he would then approve specifically 
the kinds of forces that would be used in these circumstances.
    So a very controlled process by which certainly the state, 
in the case of something like riots, would have a part to play, 
and the President would make that determination prior to us 
deploying anyone.
    Mr. McIntyre. Is it your understanding that would include a 
specific timeline or just for the accomplishment of the 
assignment, not knowing----
    General Renuart. My understanding it would be for the 
accomplishment of that mission. It include a timeline, but, 
sir, I am not a legal expert on if that is required in order to 
give that authority.
    Mr. McIntyre. Also, I wanted to ask you, General, if you 
could help explain with our close work we all do with state and 
local authorities, how you would see the command and control 
relationship between NORTHCOM and state and local officials 
during a crisis, such as a terrorist incident, and where you 
see your interplay to make sure there is a coordination of 
effort.
    General Renuart. Mr. McIntyre, again, this is one of the 
kinds of scenarios that we work in our interactive planning 
process with both the Department of Homeland Security and our 
friends in the National Guard and with the states.
    A terrorist event in the country would certainly be 
responded to. The primary Federal agency to respond would be 
the Department of Homeland Security. At the onset of any event, 
we establish an immediate contact with the state that might be 
affected or multiple states, should that be the case.
    We begin to build a level of situation awareness of their 
capability to respond, and we begin also coordinating with the 
Department of Defense on whether or not the Federal Government 
is going to use military to respond in that particular event.
    But some examples of support that we might provide could be 
in the event that were critical infrastructure nodes that were 
threatened and that the state and private industry was not 
capable of the size of force necessary to protect those, we 
could be asked to augment Federal agencies or augment state 
agencies in that defense.
    The command and control will vary with each circumstance, 
frankly. If it is a very small event, it may be something as 
simple as the local law enforcement in that county would be in 
charge.
    For example, while not a terrorist threat, when the bridge 
collapsed in Minnesota, if you will, the supported commander 
was the local county sheriff, but the DOD support came from our 
defense coordinating officer who is attached to FEMA region in 
that area and the Navy divers who were assigned there to 
provide that assistance to recover the remains of those eight 
casualties.
    And so that is a very clear command and control 
relationship. The DOD folks were under the command of that 
Defense Coordinating Officer (DCO), that officer, but he was 
there under the tactical control, if you will, or the on-scene 
support of that sheriff.
    We practice this on a daily basis. We did, for example, in 
Indiana during Ardent Sentry last spring. We simulated the 
explosion of a 10-kiloton nuclear weapon. In that case, the 
governor directed all of the activities in support of that 
event. His adjutant general commanded the Guard forces that 
were supported there.
    I had a joint task force deployed. That officer maintained 
the command relationship of the title 10 forces that were 
there, and the two worked hand in hand. The tag was the 
supported commander, and so our forces were there to assist and 
support the adjutant general as he worked directly for his 
governor.
    So each event will have a little different nuance, but we 
worked very hard to ensure that no matter what it was we had a 
unity of effort.
    Mr. McIntyre. Thank you. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Smith. Thank you.
    Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman.
    Thank you, gentlemen.
    Admiral, double thank you for round two here today.
    I want to pick up, Admiral, if I could, perhaps because the 
Marine Corps was kind enough to let me climb in the cockpit and 
fly an MV-22 last year, I want to explore a little bit further 
your bringing the CV-22s online. Again, I love this book, so I 
went back to it. I know you are familiar with it.
    So I have a couple of questions about the CV-22. On page 
14, you indicate that in fiscal year 2009, U.S. SOCOM requests 
funds to modify six CV-22s with soft procurer equipment. I 
thought these things were being built from the ground up in Mr. 
Thornberry's district for you. So can you tell--I know we don't 
want to wander into classified area, but what does that mean, 
you are going to modify the CV-22s, which were built for you in 
the first place?
    Can somebody----
    Admiral Olson. Sir, as with most of the major platforms 
that we procure, they are purchased under service contracts to 
service common requirements and then modified with U.S. SOCOM's 
budget to answer special operations peculiar mission 
requirements.
    In the case of the CV-22, as compared to the MV-22, those 
modifications are primarily terrain following, terrain 
avoidance systems and some defensive survivability systems. And 
it includes also an aerial refueling modification. So those are 
the primary modifications.
    In the end, the Air Force, in the case of the CV-22, is 
funding about three-quarters of the purchase of the CV-22, and 
U.S. Special Operations Command is funding about one-quarter of 
it.
    Mr. Kline. Okay. I think I get it now.
    These modifications that you are talking about you are 
paying for but they are being put in at the production line in 
Amarillo. This isn't an add-on later or a modification, if you 
will, to an already produced airframe. This is being modified 
in production, and that is the part that U.S. SOCOM is paying 
for; is that correct?
    Admiral Olson. That is correct.
    Mr. Kline. Okay.
    Admiral Olson. The production line splits, and those that 
are going to become MV-22s as opposed to CV-22s then go through 
a different production after the basic airframe is rolled down 
the line.
    Mr. Kline. Right. Well, I have toured that plant a couple 
of times, and I have watched that split, and I guess that is 
what drove me to the question, because it looked like, clearly, 
at the plant, in Amarillo, there is a difference between the 
MV-22 and the CV-22. It is being, I thought, made from scratch 
for you and what you are saying, it is but the modifications 
that are in this nifty book are the part that you are paying 
for that makes them unique for you.
    Admiral Olson. That is correct, sir.
    Mr. Kline. Yes. And you are the only Air Force user right 
now of the V-22. Is that right?
    Admiral Olson. At this time, that is correct, sir.
    Mr. Kline. Okay. Great. Thanks very much.
    I will yield back.
    Mr. Smith. Mrs. Gillibrand.
    Mrs. Gillibrand. Thank you, Mr. Chairman.
    Thank you, both, for coming here today and giving your 
testimony. I am very grateful, and I appreciate your service.
    I want to ask a little bit about the budget. The 
President's budget did not fund SOCOM to meet the current and 
future threat requirements, and there is almost a $700 million 
shortfall. What do you think the risks will be to security to 
the American public should Congress not be able to make up this 
shortfall?
    Admiral Olson. Mrs. Gillibrand, thank you.
    First, I would like to be clear that the Department of 
Defense did approve the budget we submitted. We adhered to the 
guidance as we submitted it. So our unfunded requirement (UFR) 
list that you are referring to are those items that didn't make 
it into our budget request because they either didn't meet the 
top priority or because we saw opportunities for acceleration 
of production in certain items or because they were submitted 
and approved within my headquarters after we submitted the 
President's budget but before we submitted our unfunded 
requirements list.
    The risk to security is in the capacity of Special 
Operations Command and some of our high-end capabilities. We 
are globally engaged, and we are globally engaged without all 
of the tools that are needed for us to meet the combatant 
commander's requirements of the war.
    Mrs. Gillibrand. I was most concerned because you have 
shortfalls in research and development and in science and 
technology, and I am very concerned about that in particular, 
because, obviously, some of the areas where we still need to 
develop increased expertise really require the research and 
development and the science and technology work.
    And, obviously, there is a lot of discussion about roles 
and missions and allowing special operations forces to expand 
their mission to include certain kinds of security missions 
that are unique and are developing, like, cyber security, being 
able to respond to cyber terrorism. I know the Air Force is 
recently working on cyberspace command.
    So I am concerned that if we are underfunding any area, 
that underfunding research and development and science and 
technology is probably not the best place, because that is 
probably where we are going to find solutions for these new 
security demands.
    Would you like to comment for our committee at all on that 
issue?
    Admiral Olson. I would like to agree with you on that, 
ma'am.
    I do have authorities as the commander of Special 
Operations Command that are more like a military service. I can 
do the research and development, I can invest in science and 
technology, unlike most combatant commanders but more like the 
service chiefs.
    I am obliged to invest my major force program $11 million 
on those science and technology items that are Special 
Operations peculiar in their nature and their application, 
which means that others are not likely to invest in those 
items. And therefore, if we don't, nobody does.
    Mrs. Gillibrand. Well, I would urge you to continue your 
advocacy on these issues, because I do see the future of our 
ability to protect this country very much in that area of 
science and technology.
    Particularly, I want to turn and--General, you can comment 
on this for the Air Force--with cyber security as a fundamental 
issue, what have you thought about ways to engage the next 
generation of our greatest minds from engineering, mathematics, 
science and technology to turn to public service and military 
service as an avenue for the profession?
    And I have asked this question in other context, it may 
require a different kind of recruitment that is not 
traditional, because you are looking for individual that have a 
certain skill set that may not have a typical background in 
public service or an interest in military interest. But you 
truly have the skill set we need to protect this country.
    If you are doing any particular innovative outreach or 
recruiting, I would love to hear about it.
    General Renuart. Ma'am, thank you for the question, and I 
am a little unprepared to answer that question, but I will 
certainly give you my understanding of where the Air Force is 
going, even though that doesn't technically fall into my 
responsibility.
    You make a great point, however, that the recruiting base, 
if you will, is becoming increasingly thin. I think there are 
some statistics that say that less than five of 10 high school 
graduates meet the various criteria for service, not just in 
military but in other areas as well. I think it is important 
for us to have an ability to reach out and expand that level.
    One of the elements that I talk to as the commander of 
NORTHCOM, as it relates to homeland defense, every day with our 
private sector partners as well as our education partners, is 
our ability to develop the technical skills of our students, 
from local initiatives like working with our local school 
districts to expand science and technology by using our own 
officers as mentors and experts in the high schools to working 
with, for example, the University of Colorado at Colorado 
Springs on advanced degree programs in homeland security, not 
to make a military member better educated but to help educate 
our executives in government and in industry on the issues of 
homeland security and homeland defense.
    So I think we do have to be innovative in that regard. I 
think we do have to commit to helping that next generation of 
great young minds, and national service, public service, 
service to the community a critical element of that. I am 
blessed with two sons. The oldest is a former active duty 
enlisted and reservist, three combat tours. He was back in Iraq 
as a contractor. He is now working for the State Department.
    My youngest son is a Peace Corps volunteer who has--he is 
now a med student who will go back and help developing 
countries of the world. So we encourage that within our own 
sons, and I think we have to do that as a Nation.
    Mrs. Gillibrand. Thank you.
    Mr. Smith. Thank you.
    Mrs. Gillibrand. Five minutes are up?
    Mr. Smith. Five minutes are up, and we have got a couple 
more people in here, but if we have time at the end, we will 
come back and get other folks.
    Mrs. Drake.
    Mrs. Drake. Thank you, Mr. Chairman.
    Admiral, General, thank you for being here today.
    Admiral Olson, I would like to ask you about the Advance 
SEAL Delivery System (ASDS). You had mentioned in your written 
testimony that ASDS number one is ready for deployment, and 
what my concern is, is that the capability gap that this 
program was designed to address still has not been fully met in 
the two years since the program has been canceled.
    Is SOCOM assessing alternative solutions or is this the 
capability that SOCOM still needs?
    Admiral Olson. Thank you, Ms. Drake. ASDS, the Advanced 
SEAL Delivery System, certainly much more than that, in fact, I 
compare it to an underwater space shuttle. As the space shuttle 
was designed to do more than take astronauts into space, it was 
designed to enable man to work in an environment in which he 
could loiter for previously unattainable periods. ASDS does 
that in a maritime environment.
    We canceled the program because it was a troubled program. 
The delivery of the first ASDS was way late, way over cost, and 
it had reliability issues that concerned us seriously about the 
safety of the people that we were putting inside. So we 
canceled the program in order to invest with greater focus in 
enhancing the reliability of the one that was in production.
    I believe that we have met the reliability standards, I am 
convinced that we have. We have declared that one asset 
operational. It is currently aboard a submarine in the Pacific 
in, sort of, a--I am sorry, it is not, but it is preparing to 
do that for, sort of, a shakedown and test opportunity.
    One doesn't answer our need. We have a standing requirement 
for a small fleet. It is somewhere between four and six. I also 
am convinced that the applicability of the submarine extends 
beyond special operations applications. We are having 
discussions with the Navy about potential Navy employment of 
ASDS.
    In specific answer to your question about whether or not we 
are analyzing alternatives, the answer is, yes. When we 
canceled the program, we initiated an effort to recommend a way 
ahead with respect to a material solution to the requirement. I 
will receive that report in about two weeks.
    Mrs. Drake. Oh, okay. Thank you. And just one last question 
for you. When Dr. Chu was here the other day, we did ask him 
about whether you had the tools you need to retain our more 
senior SEALS, and I just wanted to know from you if you think 
you have what you need to retain this very, very valuable asset 
to our military?
    Admiral Olson. Ma'am, with the support of this committee, 
we were able to institute a retention bonus that is applicable 
at the 19-year point for our experienced SEALS. It offers them 
bonuses to stay in through the 25th year point. That has proven 
successful. It was a temporary authority at the time that it 
was granted. It was temporary as it was implemented by the 
Department of Defense, and so we are working with the 
department to extend that into a permanent bonus. But given 
that, we are in pretty good shape.
    Mrs. Drake. Thank you. Thank you for being here.
    Mr. Chairman, I will yield back.
    Mr. Smith. Thank you.
    Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman.
    General, we had an issue in this subcommittee last year 
about the civil support teams (CST) and how many we needed 
where. I have a chart in front of me that describes some of the 
different organizations that are being created, and, frankly, I 
am a little concerned that there are lots of people who say, 
``This is what we do,'' and there is a lot of overlap and so 
forth that is a little confusing to me.
    In addition to civil support teams, there apparently are 
joint National Guard Chemical Biological Radiological Nuclear 
Explosive (CBRNE) enhanced response force packages, and there 
are Chemical-Biological Incident Response Forces, and there are 
CBRNE Consequent Management Response Force.
    I am not exactly clear what everybody does. I want you to 
reassure me that there are clear lanes in the road, and 
everybody is not coming to the taxpayer for money to do the 
same thing.
    General Renuart. Mr. Thornberry, that is a superb question, 
because at first glance, that chart can be very confusing, but, 
actually, working in that environment every day I think we have 
really created a very good synergy among all the players. And 
let me try to put that in perspective.
    Congress provided funding to allow each state to develop a 
civil support team, and that is a 22-person team that is really 
designed as the quick response force that can go to a chemical 
or biological event and relieve those first responders with 
people who are trained to operate in that kind of environment, 
a chemical environment, a biological environment or the like.
    They are there to assess the initial scene and to make 
recommendations back to the state on the size of force that it 
may take to respond. If, in fact, it is a larger event than 
that small 22-person team can manage, then they can go out 
either to a state to bring in a supporting team of similar 
capabilities or they can go to one of the 17 regionally based 
Enhanced Response Force Packages (CERFP) that you mentioned is 
that second group, about 200 plus individuals, again, trained 
to operate in a chemical environment to begin to do consequence 
management of the site. CST is an assessment team. The CERFP 
begins to allow you to do consequence management.
    Mr. Thornberry. Excuse me for interrupting. We have got a 
vote called----
    General Renuart. Understand.
    Mr. Thornberry [continuing]. And I am a little concerned.
    You are making me feel better. If you don't mind, if you 
could get your folks to provide us, what you have started to 
do, a description and who the traffic cop is. Who says this is 
an assessment team versus----
    General Renuart. Right.
    Mr. Thornberry [continuing]. And then going on down.
    General Renuart. I would be happy to do that.
    [The information referred to can be found in the Appendix 
beginning on page 97.]
    Mr. Thornberry. I think that would be helpful for me, at 
least, to sort through this.
    Admiral Olson, if I could ask just briefly, one of the 
things that your folks do is train other special forces, and we 
have seen some of that as we have traveled around. My 
understanding is that there are those countries that would like 
to send folks here for us to train but there are limitations, 
financial and otherwise. Can you describe--what we are talking 
about is trying to work through others to increase others' 
capabilities so we don't have to do everything. Is this an area 
you think Congress should put more emphasis on so that your 
folks can train others to take care of their security needs for 
themselves, and what do we need to do to make that happen?
    Admiral Olson. Mr. Thornberry, you are correct, there are 
limitations, and some of those limitations are funding 
limitations. In many of the countries with which we work there, 
the lesser developed countries of the world, the high priority 
and the priority countries in a campaign against terrorism in 
which we are investing resources for training for the purpose 
of enabling them to either fight with, fight alongside us or 
enable their own sovereignty through governing their own 
borders and establish their own internal security. These are 
not the wealthiest nations of the country, in general.
    I met the International Military Education Training 
Program. It is a wonderful program. In my view, it has been 
underfunded for many years. It is the best tool that we have to 
enable those carefully selected members from other countries to 
come to schools in the United States and train, not just skills 
training but also to our war colleges and graduate schools for 
education as well.
    When we send people forward, we pick, sort of, the people 
who are regionally oriented, who are in line to go, ensuring 
that we are regionally specializing as we do that and 
attempting to send the same people back to the same places. 
They hand pick virtually everybody who trains with us. It is a 
badge of honor and a very prestigious point for them to be 
selected for training in the United States. This is an 
investment that pays off in many ways.
    Mr. Smith. Thank you.
    I think what we will do--I mean, I have a few more 
questions. I am sure Mr. Thornberry does as well. But rather 
than have all of you sit here for a half hour waiting for five 
minutes more worth of questions, we will submit the ones we 
have and have not been answered for the record and give you the 
rest of the afternoon off. How is that? I am sure you have 
other things to do.
    But thank you very much, both of you, for your testimony, 
and, again, both of you, for your accessibility to this 
committee and to the full committee. We have had great working 
relationships with both of you and both of your staffs, and we 
really appreciate the work that you do to do that.
    So thanks for being here this afternoon, and we are 
adjourned.
    [Whereupon, at 2:23 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             March 5, 2008

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 5, 2008

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T3668.001
    
    [GRAPHIC] [TIFF OMITTED] T3668.002
    
    [GRAPHIC] [TIFF OMITTED] T3668.003
    
    [GRAPHIC] [TIFF OMITTED] T3668.004
    
    [GRAPHIC] [TIFF OMITTED] T3668.005
    
    [GRAPHIC] [TIFF OMITTED] T3668.006
    
    [GRAPHIC] [TIFF OMITTED] T3668.007
    
    [GRAPHIC] [TIFF OMITTED] T3668.008
    
    [GRAPHIC] [TIFF OMITTED] T3668.009
    
    [GRAPHIC] [TIFF OMITTED] T3668.010
    
    [GRAPHIC] [TIFF OMITTED] T3668.011
    
    [GRAPHIC] [TIFF OMITTED] T3668.012
    
    [GRAPHIC] [TIFF OMITTED] T3668.013
    
    [GRAPHIC] [TIFF OMITTED] T3668.014
    
    [GRAPHIC] [TIFF OMITTED] T3668.015
    
    [GRAPHIC] [TIFF OMITTED] T3668.016
    
    [GRAPHIC] [TIFF OMITTED] T3668.017
    
    [GRAPHIC] [TIFF OMITTED] T3668.018
    
    [GRAPHIC] [TIFF OMITTED] T3668.019
    
    [GRAPHIC] [TIFF OMITTED] T3668.020
    
    [GRAPHIC] [TIFF OMITTED] T3668.021
    
    [GRAPHIC] [TIFF OMITTED] T3668.022
    
    [GRAPHIC] [TIFF OMITTED] T3668.023
    
    [GRAPHIC] [TIFF OMITTED] T3668.024
    
    [GRAPHIC] [TIFF OMITTED] T3668.025
    
    [GRAPHIC] [TIFF OMITTED] T3668.026
    
    [GRAPHIC] [TIFF OMITTED] T3668.027
    
    [GRAPHIC] [TIFF OMITTED] T3668.028
    
    [GRAPHIC] [TIFF OMITTED] T3668.029
    
    [GRAPHIC] [TIFF OMITTED] T3668.030
    
    [GRAPHIC] [TIFF OMITTED] T3668.031
    
    [GRAPHIC] [TIFF OMITTED] T3668.032
    
    [GRAPHIC] [TIFF OMITTED] T3668.033
    
    [GRAPHIC] [TIFF OMITTED] T3668.034
    
    [GRAPHIC] [TIFF OMITTED] T3668.035
    
    [GRAPHIC] [TIFF OMITTED] T3668.036
    
    [GRAPHIC] [TIFF OMITTED] T3668.037
    
    [GRAPHIC] [TIFF OMITTED] T3668.038
    
    [GRAPHIC] [TIFF OMITTED] T3668.039
    
    [GRAPHIC] [TIFF OMITTED] T3668.040
    
    [GRAPHIC] [TIFF OMITTED] T3668.041
    
    [GRAPHIC] [TIFF OMITTED] T3668.042
    
    [GRAPHIC] [TIFF OMITTED] T3668.043
    
    [GRAPHIC] [TIFF OMITTED] T3668.044
    
    [GRAPHIC] [TIFF OMITTED] T3668.045
    
    [GRAPHIC] [TIFF OMITTED] T3668.046
    
    [GRAPHIC] [TIFF OMITTED] T3668.047
    
    [GRAPHIC] [TIFF OMITTED] T3668.048
    
    [GRAPHIC] [TIFF OMITTED] T3668.049
    
    [GRAPHIC] [TIFF OMITTED] T3668.050
    
    [GRAPHIC] [TIFF OMITTED] T3668.051
    
    [GRAPHIC] [TIFF OMITTED] T3668.052
    
    [GRAPHIC] [TIFF OMITTED] T3668.053
    
    [GRAPHIC] [TIFF OMITTED] T3668.054
    
    [GRAPHIC] [TIFF OMITTED] T3668.055
    
?

      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                             March 5, 2008

=======================================================================

      
                    QUESTIONS SUBMITTED BY MR. SMITH

    Mr. Smith. General Renuart, please share your views about the 
findings and recommendations of the Commission on Guard and Reserves 
with regards to NORTHCOM and the homeland defense/civil support 
mission.
    General Renuart. The Secretary of Defense has directed a 
comprehensive review of the final Report of the Commission on the 
National Guard and Reserves. USNORTHCOM is actively participating in 
the DOD Commission on the National Guard and Reserves Working Group 
tasked to evaluate each of the 95 recommendations and propose 
implementation guidance or alternative approaches for the Secretary of 
Defense's consideration. USNORTHCOM is prepared to implement DOD 
guidance as directed.
    Mr. Smith. General Renuart, the Commission criticized NORTHCOM's 
contingency planning performance. Please comment.
    General Renuart. I do not agree with the assessment that USNORTHCOM 
CONPLAN 3500, Chemical, Biological, Radiological, Nuclear and High-
Yield Explosive (CBRNET) Consequence Management (CM) is inadequate. 
CONPLAN 3500 is the DOD strategic plan for a CBRNE event, which 
includes a domestic Weapons of Mass Destruction incident, in support of 
the overall state and federal response. USNORTHCOM's plan accounts for 
the National Guard CBRNE response capabilities either resident in each 
state or supplied from other states through the Emergency Management 
Assistance Compact process. These National Guard response forces will 
operate under the command and control of the Governor. If a 
catastrophic incident exceeds the state's capabilities, CONPLAN 3500 is 
designed to quickly deploy thousands of active duty forces to fill 
capability gaps and support the Governor-controlled state response.
    USNORTHCOM's planning process begins with mission analysis and 
development and refinement of a course of action. Our plans undergo a 
minimum of three rounds of coordination within the Command, as well as 
with interagency representatives and the National Guard Bureau. During 
this development process, Commander, USNORTHCOM presents the Secretary 
of Defense with In-Progress Reviews of the Mission Analysis, Course of 
Action Development and the final plan.
    The most recent version of CONPLAN 3500 was approved by the 
Secretary of Defense on 11 May 2007. Before the Secretary approved the 
final version, it was staffed through the Joint Planning and Execution 
Community (JPEC), which includes the Joint Staff, the Services, Combat 
Support Agencies, and other combatant commands. In addition, once the 
Secretary approved the plan, it began a revision cycle in accordance 
with the DOD Adaptive Planning process to maintain relevant, living 
plans. This includes a complete reassessment of the plan to ensure it 
remains current and consistent with strategic guidance and planning 
assumptions. As such, CONPLAN 3500 for CBRNE Consequence Management has 
been reviewed by the JPEC three times since May 2007, and will undergo 
a complete reassessment in 2008.
    In terms of Defense Support of Civil Authorities (DSCA), USNORTHCOM 
aggressively plans for catastrophic events such as hurricanes and 
wildfires by incorporating lessons learned from Hurricanes Katrina, 
Rita, Dean, and most recently the Southern California wildfires. We 
have made significant impact to DSCA planning and execution by manning 
Defense Coordinating Officer positions with dedicated full-time senior 
officers who are linked with their civilian counterparts in the 
respective FEMA regions. Through comprehensive lessons learned 
analysis, exercises, and partnering in gap analysis of local, state, 
and federal response capabilities, USNORTHCOM makes planning 
recommendations to improve DOD responsiveness when a request for 
assistance is received from a primary agency such as FEMA. These 
planning recommendations culminated in revisions to the Joint Staff 
DSCA Execute Order (EXORD), which is reviewed and updated annually by 
the DOD. This important tool ultimately improves our ability to 
anticipate and respond in a timely and effective manner across the 
spectrum of DSCA events.
    With regards to wild land fire fighting, USNORTHCOM goes to great 
lengths to plan for each wild land fire fighting season. Starting with 
the USNORTHCOM-hosted Post Wild Land Fire Fighting Conference, we work 
year-round with the U.S. Forest Service, the National Interagency Fire 
Center, the Air National Guard and Reserves, as well as a host of other 
interagency partners to plan and prepare to provide DOD Fire Fighting 
capabilities when requested. This planning effort culminates each 
spring with the publication of the USNORTHCOM Wild Land Fire Fighting 
EXORD. Among the DOD capabilities available in this EXORD are the C-130 
Modular Airborne Fire Fighting System, helicopters capable of using 
``Bambi'' buckets for water drops, and personnel to staff ground fire 
fighting battalions. The response to the Southern California Wildfires 
of 2007 shows that USNORTHCOM's planning is effective, and that we 
continually assess and improve our response process to aid local, state 
and federal wild land fire fighting efforts.
    Finally, USNORTHCOM plans are evaluated primarily through yearly 
exercises. In May 2007, USNORTHCOM successfully exercised the first-
ever substantial CBRNE CM Response Force (CCMRF) deployment during 
Exercise ARDENT SENTRY-NORTHERN EDGE 07, and will continue annual 
exercises of these capabilities to maintain critical readiness. 
USNORTHCOM also conducts Chairman, Joint Chiefs of Staff-directed plan 
capability assessments in accordance with the Joint Combat Capability 
Assessment process. These assessments require force providers to 
identify specific forces that would be used to respond to a CBRNE 
incident. We review the forces for adequacy, proficiently, and timely 
response capability as we assess the level of risk associated with 
accomplishing the plan's objectives. We are in the process of 
completing the second such comprehensive assessment for CONPLAN 3500.
    Mr. Smith. General Renuart, what do you think of the Commission's 
recommendation to alter the active-reserve mix at NORTHCOM?
    General Renuart. I believe the Commission's recommendation 
regarding USNORTHCOM staff qualifications is unnecessary. I am 
satisfied that USNORTHCOM personnel possess sufficient experience 
levels to provide timely and effective support to the states. 
Currently, 46% of USNORTHCOM service members have previous experience 
working with National Guard and Reservist personnel and units. This 
percentage would increase if the Reserve Component were able to fill 
existing USNORTHCOM National Guard and Reserve vacancies. I currently 
have 13 full time and 324 part-time Reserve Component (comprised of 
both National Guard and Reserve forces) positions unfilled. In general, 
I believe that a broad policy of selecting the most qualified personnel 
for a position, with the goal of increasing the breadth and depth of 
Reserve Component experience across the board and placing Guard and 
Reserve officers in particular positions when warranted and 
supportable, is appropriate. The Guard and Reserve must adopt a 
professional development program that grows their officers with the 
right mix of operational and joint experience to make them competitive 
for these key positions.
    USNORTHCOM is leading an OSD implementation plan working group to 
implement Recommendation #16 in the Second Report of the Commission on 
the National Guard and Reserves and Sec 1821 of the FY08 National 
Defense Authorization Act. Progress made by this group will influence 
the overall response to the latest recommendation in the Final Report 
of the Commission on the National Guard and Reserves on the same 
subject.
    Mr. Smith. General Renuart, please explain the command-and-control 
relationship between NORTHCOM and State and local officials during a 
crisis, consequent management, and/or terrorist incident and provide 
examples.
    General Renuart. When conducting consequence management in support 
of state and local officials, USNORTHCOM is part of a coordinated 
federal response under the National Response Framework (NRF) and the 
comprehensive National Incident Management System (NIMS). Under this 
structure, USNORTHCOM provides support requested by state and local 
officials, through the primary federal agency. The scope and focus of 
each mission is controlled by the state's initial request to the 
primary federal agency, and the subsequent request for support from the 
primary federal agency through DOD to USNORTHCOM. USNORTHCOM remains, 
at all times, under the command and control (C2) of the Secretary of 
Defense. Within the general parameters of the approved mission and 
keeping the integrity of its federal C2, USNORTHCOM coordinates with 
the on-site state or local commander, and responds to the developing 
needs of the situation.
    USNORTHCOM's support to the collapse of the I-35W Bridge between 
downtown Minneapolis and St. Paul is an example of this process. 
USNORTHCOM deployed its Federal Emergency Management Agency Region V 
Defense Coordinating Officer, who worked closely with federal, state 
and local officials to determine the type and extent of DOD support 
needed. When state and local officials to determine the type and extent 
of DOD support needed. When state and local officials requested 
underwater salvage capabilities. USNORTHCOM coordinated with the U.S. 
Transportation Command and the U.S. Navy to deploy underwater 
specialists. At the scene, while the Defense Coordinating Officer and 
Navy divers remained under a federal C2, they responded to and 
coordinated with the County Sheriff, who remained in control of the on-
scene operations. USNORTHCOM responded to the 2007 Southern California 
wildfires using this same structure. For instance, the Incident 
Awareness and Assessment assets USNORTHCOM employed to provide critical 
imagery to local responders remained under federal C2, but were 
employed only after comprehensive coordination with state and local 
officials, with the sole objective to provide the precise support local 
responders needed to effectively fight the fires.
    The Attorney General has lead responsibility for criminal 
investigations of terrorist acts or threats within the United States. 
When requested by the Attorney General and approved by the Secretary of 
Defense, USNORTHCOM provides support to the Attorney General, remaining 
under a federal military C2, responding typically to the Federal Bureau 
of Investigation Special Agent in Charge.
    Mr. Smith. General Renuart, what are among the most stressing 
scenarios under which NORTHCOM personnel have exercised? In other 
words, which scenarios offer the most risk to our Nation?
    General Renuart. [The information referred to is classified and 
retained in the committee files.]
    Mr. Smith. General Renuart, what are the 15 different national 
planning scenarios? Can you describe them?
    General Renuart. In November 2003, the Homeland Security Council 
and the Department of Homeland Security (DHS) began developing the 15 
all-hazards National Planning Scenarios (NPS). The objective was to 
develop the minimum number of scenarios required to test the range of 
required prevention, protection, response, and recovery resources. They 
serve as the foundation for the development of homeland security tasks, 
required capabilities, and standards against which capabilities will be 
measured. The scenario-derived standards serve as a basis for assessing 
national preparedness; help guide federal preparedness assistance to 
state, local, and tribal governments; and to develop national exercises 
and training programs. The scenarios are:

    Scenario 1:  Nuclear Detonation--Improvised Nuclear Device
    Scenario 2:  Biological Attack--Aerosol Anthrax
    Scenario 3:  Biological Disease Outbreak--Pandemic Influenza
    Scenario 4:  Biological Attack--Pneumonic Plague
    Scenario 5:  Chemical Attack--Blister Agent
    Scenario 6:  Chemical Attack--Toxic Industrial Chemicals
    Scenario 7:  Chemical Attack--Nerve Agent
    Scenario 8:  Chemical Attack--Chlorine Tank Explosion
    Scenario 9:  Natural Disaster--Major Earthquake
    Scenario 10: Natural Disaster--Major Hurricane
    Scenario 11: Radiological Attack--Radiological Dispersal Devices
    Scenario 12:  Explosives Attack--Bombing Using Improvised Explosive 
Device
    Scenario 13: Biological Attack--Food Contamination
    Scenario 14: Biological Attack--Foreign Animal Disease
    Scenario 15: Cyber Attack

    The 15 NPS are an integral component of DHS's capabilities-based 
approach to implementing Homeland Security Presidential Directive 8: 
National Preparedness (HSPD-8) (2003) and HSPD 8, Annex 1, National 
Planning (December 2007). HSPD 8, Annex 1, directs the Secretary DHS to 
develop a standardized federal planning process by developing an 
Integrated Planning System. It mandates a unified and comprehensive 
approach to national planning for the 15 NPS with DHS in the lead, and 
DOD, as well as the other federal agencies, in support. DOD's role is 
to plan to support the DHS overarching national plans. Since November 
2007, USNORTHCOM planners have coordinated closely and frequently with 
the DHS Incident Management Planning Team to facilitate success in this 
effort. USNORTHCOM is adding specific appendices to our Concept Plans 
for the appropriate NPS, which have been aggregated, to improve 
planning, into eight sets of related scenarios.
    Mr. Smith. General Renuart, please explain the various missions of 
the National Guard Civil Support Teams (CSTs), the CBRNE Emergency 
Response Force Packages (CERFPs), and the CBRNE Consequence Management 
Response Forces (CCMRFs). How does NORTHCOM envision employment of such 
forces during times of crises?
    General Renuart. The National Guard Weapons of Mass Destruction 
Civil Support Teams (WMD-CSTs) detect and identify CBRNE agents/
substances, assess and advise the local authorities on managing the 
effects of the attack, and assist with requests for other forces (i.e. 
CERFPs). They are a 22-person response unit located in each state and 
territory (55 total, 53 of which are certified) that performs an 
initial assessment of a CBRNE incident. These units are full time, 
congressionally authorized, federally funded, and fall under the 
command and control of the governor.
    CERFPs locate and extract victims from a contaminated environment, 
perform medical triage and treatment, and perform mass patient/casualty 
decontamination. Each of these units is a task force of between 200 and 
400 personnel, composed of an Army battalion or Air Force equivalent C2 
element, an Air National Guard Medical Flight, an Army Chemical Company 
(-) and an Army Engineer Company (-). The 17 CERFPs are congressionally 
authorized, traditional Guard only, with 4-5 full time personnel per 
unit, and are located regionally to provide additional support to the 
WMD-CSTs and the state government. They are capable of decontaminating, 
performing medical triage, and stabilizing 75 non-ambulatory and 225 
ambulatory personnel per hour. The WMD-CSTs and CERFPs support the 
local and state response to an incident and are not under the command 
and control of USNORTHCOM.
    A CCMRF provides the DOD capability to support the federal response 
to a request for assistance from a state. CCMRFs consist of roughly 
4,000 people in three force packages that are able to respond to a 
domestic catastrophic CBRNE event. This force is pre-identified from 
within existing DOD force structure and-is under Operational Control of 
the Commander, USNORTHCOM. The following outlines the capabilities of 
the three force packages with additional follow-on forces identified as 
required:

      <bullet>  Force Package #1 capabilities: Initial C2, Command 
Assessment Teams, Initial Response Force (Medical, Logistics, 
Extraction)

      <bullet>  Force Package #2 capabilities: Medical, 
Decontamination, C2, Transportation and Logistics, Security, Public 
Affairs

      <bullet>  Force Package #3 capabilities: C2, Transportation, 
Logistical Support, Mortuary Affairs

      <bullet>  Follow-on Forces: Additional C2, Transportation, 
Logistics

    Mr. Smith. General Renuart, please explain the budgeting and 
funding processes associated with your command. How are requirements 
established and funding executed?
    General Renuart. USNORTHCOM receives funding primarily from the Air 
Force, our Combatant Command Support Agent, and the Office of the 
Secretary of Defense (OSD). Upon receipt, funds are distributed to 
USNORTHCOM headquarters staff sections and subordinate commands. 
Execution of federally appropriated dollars occurs in accordance with 
all applicable laws, regulations, directives, and instructions.
    USNORTHCOM uses a formalized, internal Corporate Deliberative 
Process to evaluate directorates' and subordinate commands' near- and 
long-term funding needs against the command mission and strategic 
guidance. We submit the Commander-approved prioritized requirements--
which support mission accomplishment across the Command's entire 
mission set--to the Combatant Command Support Agent for consideration 
through the DOD Planning, Programming, Budgeting, and Execution System.
    Mr. Smith. General Renuart, what do you think is the single, most 
important contribution of your command to the defense of the Nation?
    General Renuart. USNORTHCOM's most important contribution is the 
integration of all aspects of homeland defense and support to civil 
authorities. We are an active, engaged Command that pulls together many 
things that were formerly diffused and scattered in order to prosecute 
an active layered defense of the homeland and provide effective, timely 
support to civil authorities. We have strong relationships with our 
federal partners like, but not limited to, DHS and the National Guard. 
These relationships offer the opportunity to create unity of effort in 
our shared national responsibility to defend our homeland against a 
range of threats--both state and nonstate--extending into all domains.
    Additionally, USNORTHCOM is DOD's single integrating location for 
state and federal response to natural and man-made disasters. We ensure 
a common picture of air, land, space, and maritime operations in 
defense of our homeland. Bottom line is that we defend our families, 
our friends, our communities, and our way of life on the home field
    Mr. Smith. General Renuart, what do you think is the single 
greatest challenge to your command and what additional authorities 
should Congress consider providing to help you succeed in your mission?
    General Renuart. [The information referred to is classified and 
retained in the committee files.]
    Mr. Smith. General Renuart, how has the high operational tempo of 
the DOD personnel community affected NORTHCOM planning, training and 
exercise execution? How differently might the command look if such a 
high number of active and reserve personnel were not regularly deployed 
overseas?
    General Renuart. Since USNORTHCOM has very few assigned forces, the 
high operational tempo of deployed DOD personnel in support of ongoing 
operations impacts the Command's ability to train and exercise our two 
major missions--homeland defense and civil support--using the forces 
that we would require for an actual event. If the operational tempo of 
DOD forces decreased, it could potentially result in a larger 
percentage of DOD forces for USNORTHCOM specific exercises. The 
elimination of Operations ENDURING FREEDOM and IRAQI FREEDOM 
requirements would not reduce our steady-state requirement for forces.
    Mr. Smith. General Renuart, please comment on the relative state of 
preparedness of the Marines' CBIRF unit. Reports suggest that this unit 
is in need of training and modernization funding.
    General Renuart. [The information referred to is classified and 
retained in the committee files.]
    Mr. Smith. General Renuart, please share with the committee your 
vision of CCMRF employment and schedule for the initial operational 
capability of each. How many personnel do you envision being assigned 
to each?
    General Renuart. [The information referred to is classified and 
retained in the committee files.]
    Mr. Smith. General Renuart, how might our Nation's response have 
been different on 9/11 and during Hurricane Katrina if NORTHCOM and its 
current capability had been in place?
    General Renuart. I believe that USNORTHCOM contributions and the 
national response would have been much more responsive and synchronized 
due to the maturation of the National Response Framework, strong 
relationships between USNORTHCOM and our federal and state partners, 
development of Joint Staff Standing Execute Orders (EXORDS), and 
preparation of prescripted mission assignment lists.
    Since 9/11 and Hurricane Katrina, DOD and USNORTHCOM have acted 
aggressively, in collaboration with our interagency partners, to 
implement the recommendations of the 9/11 Commission Report; and the 
White House, House of Representatives, and Senate reports on Hurricane 
Katrina. Today, the Command is prepared to anticipate events and 
respond in accordance with the tenets of the National Response 
Framework. Actions taken include:

        <bullet>   Established a rapid intelligence and information-
        sharing network that spans DOD and several interagency 
        partners, particularly law enforcement agencies
        <bullet>   Established and improved proactive military response 
        capabilities across a wide spectrum of domestic air, ground, 
        and maritime threats to include:

          <bullet>   Conducted air patrols and deterrence operations 
        above U.S. cities

          <bullet>   Enhanced maritime domain awareness and warning

          <bullet>   Enhanced participation as a primary Maritime 
        Operation Threat Response partner

          <bullet>   Conducted ground missions to secure U.S. airports, 
        protect selected critical infrastructure, and provide support 
        to U.S. Customs and Border Protection to secure the Federal 
        border with Canada

        <bullet>   Established full-time Defense Coordinating Officers 
        in each of the 10 Federal Emergency Management Agency (FEMA) 
        regions to:

          <bullet>   Build relationships and partnerships with 
        interagency partners

          <bullet>   Allow quicker response and knowledge of incidents 
        within each FEMA region

        <bullet>   Established the USNORTHCOM Situational Awareness 
        Team

          <bullet>   Deploys early to establish linkage with the 
        Defense Coordinating Officer and the FEMA Incident Management 
        Assessment Team to ensure:

            <bullet>   Interagency information sharing

            <bullet>   Gaps and capabilities that are to be filled or 
        supported by DOD are rapidly identified

            <bullet>   Interagency unity of effort

        <bullet>   Expanded USNORTHCOM authorities in the Joint Staff 
        Defense Support of Civil Authorities Standing EXORD

          <bullet>   Enables USNORTHCOM to lean forward with the most 
        commonly requested capabilities such as medical, aviation, 
        facilities, and communications

        <bullet>   Developed Pre-Scripted Mission Assignments

          <bullet>   Reduces staffing time to satisfy Secretary of 
        Defense criteria for legal, lethal, readiness, cost, 
        appropriateness, and risk; staffing done up front

          <bullet>   Provides common language; Federal agencies 
        understand DOD capabilities

          <bullet>   Enables each Defense Coordinating Officer to work 
        more efficiently with the FEMA Federal Coordinating Officer

          <bullet>   Fulfills a statutory requirement; lesson learned 
        from the White House report on Hurricane Katrina

        <bullet>   Improved engagement with the National Guard for 
        unity of effort

          <bullet>   Improves interoperability through table top 
        exercises and conferences; USNORTHCOM and National Guard 
        National Hurricane Conference

        <bullet>   Improved engagement with other government agencies

          <bullet>   Improves planning efforts by providing dedicated 
        DOD representatives to Department of Homeland Security/FEMA, 
        NGB, select Joint Field Offices and Regions

          <bullet>   Increases exercise participation

          <bullet>   Establishes a parallel planning relationship with 
        the DHS Incident Management Planning Team and FEMA Current 
        Operations Planning Unit

    Mr. Smith. General Renuart, what is your understanding of the 
process needed to flow active duty military personnel if a situation 
requires the potential waiver of the Posse Comitatus Act? Under what 
scenarios might such consideration be necessary?
    General Renuart. Direct military support of civilian law 
enforcement agencies is very narrowly prescribed under federal law and 
policy. The Posse Comitatus Act (PCA) is the principal federal 
proscription against the use of the federal military to provide such 
direct support (e.g., search, seize, arrest). The PCA is never waived; 
specific exceptions to the Act must be invoked. Some notable exceptions 
include the Insurrection Act, the Presidential Protection Assistance 
Act, and statutes that authorize the Attorney General to ask for 
military assistance in the event of crimes involving nuclear, chemical 
or biological materials.
    USNORTHCOM would provide direct military assistance to law 
enforcement only at the direction of the Secretary of Defense, upon a 
lawful request by the appropriate law enforcement official (often the 
Attorney General) to the Secretary of Defense. The Secretary of Defense 
would direct, through an execute order, USNORTHCOM to perform the 
support mission and would provide the forces necessary for such a 
mission. Scenarios:

        <bullet>   Theft of nuclear material, with the Federal Bureau 
        of Investigation assuming jurisdiction. If the Attorney General 
        determines that the Federal Bureau of Investigation requires 
        military support, a request is made under 18 USC 831.

        <bullet>   Extensive rioting which exceeds the capability of 
        local, state and federal law enforcement to handle. The Los 
        Angeles riot of 1992 is the most recent incident in which the 
        Insurrection Act was invoked.

    Mr. Smith. Admiral Olson, what additional authorities might you 
need to better prosecute the GWOT and manage your command?
    Admiral Olson. USSOCOM and the other combatant commands need the 
additional authorities that would be provided by passage of the 19 
provisions in the FY09 Building Global Partnerships Act recently 
submitted to the Hill as draft legislation by Department of Defense. Of 
particular interest to USSOCOM are the proposals to increase and make 
permanent the funding authorities for global training and equipping 
(Sect. 1206) and support for special operations to combat terrorism 
(Sect. 1208), as well as the expansion globally of the commanders' 
emergency response program (CERP) funding authority. These and the 
other provisions of the Act to enhance training, educating, equipping 
and other support for willing partner nations are essential if we are 
to succeed in the indirect approach to the global war on terror.
    Additionally, the Commander of USSOCOM is responsible for ensuring 
the combat readiness of assigned forces. With this requirement comes 
the need for better defined personnel management authorities and 
readiness reporting frameworks. My staff is currently exploring whether 
we are using the full extent of our legislated authorities as the 
Congress and President intended when USSOCOM was established. We are 
also examining ways to coordinate with the Services in order to better 
execute our responsibility to maintain readiness in areas to include 
accessions, assignments, compensation, promotions, professional 
development, retention, sustainment and training of all special 
operations forces.
    Mr. Smith. Admiral Olson, what are SOCOM's ISR needs for 
prosecuting its mission as the overall synchronizer of the GWOT? How 
much of this requirement is related to areas outside of the CENTCOM 
AOR? Is the SOCOM ISR requirement balanced between CENTCOM and non-
CENTCOM theaters, or is it CENTCOM-centric?
    Admiral Olson. [The information referred to is classified and 
retained in the committee files.]
    Mr. Smith. Admiral Olson, please speak to the issue of dedicated 
air and ISR assets for non-special mission units, and other regional 
SOF units. Do you have plans to improve this capability? Could each of 
the respective services make additional contributions in this area? For 
example, perhaps the Navy could provide additional rotary-wing support 
to SOF from sea-going vessels.
    Admiral Olson. [The information referred to is classified and 
retained in the committee files.]
    Mr. Smith. Admiral Olson, please explain the reasoning for the drop 
in the FY09 budget request for SOCOM. Is this decrease caused in part 
because of a delay in baseline service programs on which some SOCOM 
modernization efforts rely?
    Admiral Olson. Overall, the U.S. Special Operations Command 
(USSOCOM) Fiscal Year (FY) 2009 budget request of $5.727 billion is 
lower than the $6.159 billion FY 2008 budget request, but that is due 
mainly to the funding surge provided to the command in FY 2008 to begin 
building the infrastructure and equipping the increased manpower added 
by the 2006 Quadrennial Defense Review (QDR). In total, the 2006 QDR 
added over $9 billion and 13,119 billets to USSOCOM to enhance Special 
Operations Forces (SOF) capabilities required to fight the global war 
on terror, including the standup of a new SOF Component, the Marine 
Corps Forces Special Operations Command. While the total growth set 
forth in the QDR will occur through FY 2013, the majority of the 
Military Construction (MILCON) and equipment requirements were 
requested as part of the FY 2008 budget.

        <bullet>   There were 21 MILCON projects requested in FY 2008 
        for QDR infrastructure, as compared to only four in FY 2009. As 
        a result, the MILCON budget request decreased $421 million from 
        FY 2008 to FY 2009.

        <bullet>   The procurement request for SOF-peculiar weapons and 
        communications equipment required to outfit a large percentage 
        of the SOF growth was also requested in FY 2008, resulting in a 
        smaller request in FY 2009. Our aviation procurement requests 
        also decreased due to updated cost estimates and completion of 
        several modifications in FY 2008; as a result, the procurement 
        request decreased by over $372 million in FY 2009.

        <bullet>   A significant portion of USSOCOM's procurement 
        budget is for modification of service-common platforms and 
        systems to meet mission requirements that are peculiar to 
        special operations. Unless such platforms are in the Services' 
        budget requests, the modification funds are not in USSOCOM's 
        request.

    While this year's request for the investment accounts has decreased 
from FY 2008, the request for Operations and Maintenance (O&M) 
continues to grow. Almost $450 million in additional funding is 
included to support additional SOF growth across the four components; 
of this increase, $371 million is for program growth, and will be 
utilized by the command to grow additional SOF, expand unit and 
schoolhouse training, and provide additional soldier protection systems 
such as body armor, protective clothing, and survival equipment.
    The Department has been very supportive of SOF since 9/11, and 
supported all of the resources requested by the command for FY 2009.
    Mr. Smith. Admiral Olson, your command has provided an unfunded 
requirements list of nearly $700 million. Are the items on this list 
requirements and needs validated by your command?
    Admiral Olson. The items on this list were reviewed and validated 
through the command, and approved by the Commander. The reason they are 
on the Unfunded Requirement (UFR) list is due to funding constraints, 
prioritization, or emergent requirements identified too late for 
inclusion in the FY 2009 President's Budget.
    Mr. Smith. Admiral Olson, what are the core missions of SOCOM? How 
does this list compare with the list established in Title 10 more than 
20 years ago, and how does Irregular Warfare fit into or affect the SOF 
mission?
    Admiral Olson. Special Operations core activities today include:

    Direct action
    Special reconnaissance (formerly strategic reconnaissance)
    Unconventional warfare
    Foreign internal defense
    Civil affairs operations
    Counterterrorism
    Psychological operations
    Information operations (add)
    Counter proliferation of WMD (add)
    Security force assistance (add)
    Counterinsurgency operations (add)
    Activities specified by the President or SECDEF

    These have changed slightly from the original charter as defense 
doctrine and definitions have evolved over the last two decades. 
Additionally, SOCOM Headquarters was given a core activity by the 
President to synchronize DOD plans and planning for the war on terror.
    Irregular Warfare does not affect these core activities. In fact, 
most of SOF core activities fit into the irregular warfare joint 
operational concept. Many have suggested that Irregular Warfare be 
added to SOF core activities, but IW is not an activity but a condition 
of warfare at the opposite end of the spectrum of conflict from major 
conventional war. Therefore, it is not, in and of itself an activity 
but a state of warfare.
    Mr. Smith. Admiral Olson, please share your views on ``1208'' or 
``1202'' funding.
    Admiral Olson. [The information referred to is classified and 
retained in the committee files.]
    Mr. Smith. Admiral Olson, what are your views of ``1206'' funding 
and general efforts to build partner capacity around the world?
    Admiral Olson. Section 1206 authority has made a big difference in 
developing carefully selected counterpart forces--it is hard to 
overstate its importance. Building partner nation security capacity is 
one of the most important strategic requirements for the U.S. to 
promote international security, advance U.S. interests and prevail in 
the global war on terror. Effective partners play a key role in 
disrupting terrorist networks and other transnational threats around 
the globe, thereby preventing crises that would otherwise require 
deployment of U.S. forces. The indirect approach of enabling partners 
to combat violent extremist organizations addresses the underlying 
causes of terrorism and the environments in which terrorism activities 
occur. It requires more time than the direct approach to achieve 
effects, but ultimately it will be the decisive effort in the global 
war on terror.
    Current legislation allows us to address many issues with respect 
to training and equipping militaries, but this assistance has not kept 
up with current strategic need. In order to maximize U.S. Government 
flexibility and efficiency, Section 1206 needs increased funding, 
expansion to a multi-year appropriation and authority to provide 
assistance to relevant non-military security forces (i.e., police, 
Gendarmes, and Border Guards) would improve the effectiveness of this 
worthwhile program by increasing the U.S. Government's ability to meet 
time-sensitive requirements to build the capacity of foreign security 
forces for counterterrorism operations or stability operations in which 
U.S Armed Forces are a participant.
    Mr. Smith. Admiral Olson, please discuss the nature of the 
conflicts in Iraq, Afghanistan and the Horn of Africa. How are they 
similar? How are they different? What challenges are unique to each 
location?
    Admiral Olson. [The information referred to is classified and 
retained in the committee files.]
    Mr. Smith. Admiral Olson, what can you tell us in this setting 
about the Afghan-Pakistan border region and the cooperation of the 
respective Pakistani defense and intelligence communities?
    Admiral Olson. [The information referred to is classified and 
retained in the committee files.]
    Mr. Smith. Admiral Olson, what are your current views on 
interagency integration not only in direct action missions but also in 
environments requiring indirect action?
    Admiral Olson. The U.S. Special Operations Command (USSOCOM) has a 
long history of working as a team member with the departments, 
agencies, bureaus, administrations, and centers of the U.S. government 
to address mutual problems concerning national security. After the 
September 11, 2001 attacks, we used this already established 
relationship to immediately commence actions to counter the threat at 
the tactical, operational, and strategic levels. That work has 
continued and expanded each year since 2001. It is now a natural and 
established way of executing our daily work whether we are performing 
security operations on the streets of Iraq, combat operations in the 
mountains of Afghanistan, or when we are writing and revising our 
latest strategic plans.
    Our plans revolve around five lines of operation. The direct lines 
are Disrupting Violent Extremist Organizations (VEOS) and Denying 
access and use of Weapons of Mass Destruction by VEOs. Our indirect 
lines of operation are Enabling partners to combat VEOs, Deter tacit 
and active support for VEOS, and Erode support for extremist 
ideologies.
    The Department of Defense (DOD) is not the lead for the indirect 
lines and we recognize our supporting role to those agencies who are 
the leaders as designated in the President's National Implementation 
Plan. We also recognize that we cannot accomplish the direct lines all 
by ourselves either. To support this, we've created several new 
initiatives to further our integration with other agencies in the U.S. 
government. One example is our week long Global Synchronization 
Conference held in Tampa, Florida, twice a year and attended by 
approximately 500 DOD and 100 U.S. government agency members who 
discuss and recommend the way ahead for numerous aspects of the War on 
Terrorism. The outbrief for this conference is held a week later and 
attended by senior interagency leaders.
    Another initiative is our Interagency Partnership Program which 
places USSOCOM personnel full-time at the Department of State, 
Department of Justice, Department of Homeland Security, Department of 
the Treasury, the National Counterterrorism Center, the FBI, the Drug 
Enforcement Administration, and the Department of Energy to coordinate 
and synchronize the planning for mutual tasks in the war on terror.
    A third example is the creation of our Interagency Task Forces 
which combine DOD members and members of other agencies into cohesive 
full-time organizations to fight the war on terror. The successes of 
these efforts overseas at the tactical to operational levels drove us 
to create similar organizations in the United States to address the 
operational to strategic levels as well.
    Are we at the point of perfection? Not yet, but we are very 
satisfied with our interagency work to date and continue to improve 
each year. Recent assessments of our GWOT plans have led us to increase 
our emphasis on supporting the indirect lines of operation through 
operations, actions, and activities such as our Joint Combined Exchange 
Training Teams, Civil Military Support Elements, and Military 
Information Support Teams--to name a few, while maintaining our close 
attention to the direct lines. As we continue our efforts, we recognize 
and appreciate the support Congress provides.
    Mr. Smith. Why has our approach not been more productive in 
defeating AQ and Taliban influences in Iraq and Afghanistan and other 
areas of significant interest globally? What could be done differently 
in terms of force structure, authorities and command structures? As the 
third USSOCOM Commander since 9/11, what will you do differently, and 
why? How do you define success in this war?
    Admiral Olson. We have not been more productive in defeating al-
Qaida (AQ) and Taliban influences in Iraq and Afghanistan and other 
areas of significant interest globally because we have not yet 
sufficiently met the challenge of effectively and efficiently 
implementing the indirect military actions required to defeat the 
global terrorist threat. The Department of Defense (DOD) needs to 
increase emphasis on the indirect approach at this time. Within this 
indirect approach, DOD should increase endeavors to enable our Partner 
Nations (PN) to help us further reshape the environment around our 
enemies to reduce their capacity and popular support. In addition, DOD 
needs to bolster its participation and contributions to the whole-of-
government effort, specifically with regard to a reinvigorated 
strategic communication campaign.
    From a strategic perspective, we need to prevent the emergence of 
new violent extremist threats, particularly those that pose strategic 
threats to the U.S. and our PNs. To date, we have demonstrated success 
in this endeavor. Yet, existing extremist groups continue gaining 
support and now seek to align themselves with better known ``brand 
names,'' in an effort to increase their legitimacy among their current 
and likely constituency. The creation of al-Qaeda in Iraq (AQI) and al-
Qaeda in Magreb (AQIM) are prime examples of this trend. Increasing our 
ability to support the development of capable governments in countries 
with at risk populations, and the development of a PN-focused network 
capable of delivering culturally effective messages that deter the 
emergence of new generations of extremist organizations, is vital to 
long term success in this venue.
    Meanwhile we have had mixed results in isolating threats to the 
regional or local levels, as many violent extremist organizations (VEO) 
remain as strategic threats. The outcome of the global effort to 
deprive terrorist organizations of the assets and resources needed to 
wage war over the long term has been limited. Unfortunately, DOD 
support to United States Government (USG) and PN actions has neither 
denied a sufficient number of extremists their access to funds nor 
their freedom to acquire resources and to recruit adherents and 
operatives in the global market place.
    On the other hand, DOD has been effective in defeating threats once 
they are isolated, particularly in Iraq and Afghanistan. VEOs, such as 
al-Qaeda, have felt the effects of DOD action manifested in significant 
losses and in precipitating their retreat to sanctuaries as opposed to 
openly operating among the populace. Yet as fast as we eliminate or 
capture enemy leaders and fighters, sufficient numbers of recruits and 
support flow into these organizations. This reality demonstrates the 
limitation of the direct approach--eliminating enemy combat elements 
which can be replaced is not enough to achieve long term victory. We 
must employ additional indirect actions to nullify the extremist 
networks' strategic capability and capacity to generate and project 
power.
    Likewise, we must prevent the reconstitution of VEOs, such as the 
Taliban in Afghanistan. Success depends on the establishment of a PN 
network that refuses to support extremist organizations or to permit 
their populations to support terrorism. Many nations continue to 
develop counterterrorism (CT) capabilities. DOD, however, has been 
limited in its progress to enable PN CT programs.
    While DOD deems enabling PNs to combat VEOs as the decisive 
military effort in the ongoing struggle, a comprehensive and integrated 
strategic communication campaign is also critical to countering the 
appeal of the extremist ideology. DOD must continue working with the 
U.S. Government lead, the Department of State, to help develop and 
implement this program. Still, this effort is complicated by the 
likelihood that almost any publically revealed strategic communication 
effort linked to DOD will lack legitimacy in the eyes of many targeted 
populations. As such, DOD and the U.S. Government must also work with 
PNs to spread the anti-VEO message by amplifying moderate voices that 
speak out against terrorism.
    Finally, to sufficiently meet the global challenge of implementing 
those indirect military actions required to defeat the terrorist 
threat, DOD will most likely need to realign resources. Operations 
designed to remove our enemies' freedom to act and move within 
vulnerable populations may require a more persistent application over 
several years. Due to the less tangible nature, the longer approach and 
the increased challenge of measuring success in these types of 
operations, patience will be required to reap success.
    This reality ties into what needs to be done differently in terms 
of force structure, authorities and command structures. A major 
obstacle that needs refinement, especially under the ``irregular 
warfare'' umbrella that includes counterterrorism, train-and-assist, 
stability and reconstruction operations, involves defining roles and 
missions. Though DOD is the lead in many irregular warfare activities, 
some of these activities, which would not be termed ``warfare'', are 
nested under the lead of other U.S. Government agencies, with DOD 
playing a supporting role. Therefore, as to roles and missions, we need 
to clearly define who's going to do what; who's going to have the lead 
to do what to include the prioritization in which these activities are 
going to occur and the regions in which they're going to occur; and 
what access is required, to include access by host nations and our 
other U.S. Government agencies in order to perform military activities 
in areas we are not in current conflict and may not expect to be in 
conflict soon. These accesses will require policy decisions, 
permissions and authorities for military forces to conduct those kinds 
of activities.
    In the meantime, the continuation of our 1208 (now 1202) 
authorities for the next three years remains essential to fund the 
training and equipping of counterpart forces we are engaged with 
worldwide, including well away from Afghanistan and Iraq. I am also a 
strong supporter of the 1206 authorities that enable SOCOM to do much 
important work around the authorities and the building partner capacity 
act.
    As USSOCOM Commander, it is evident that global demand for Special 
Operations Forces (SOF) exceeds supply, and I anticipate no decrease in 
demand even as some other U.S. forces eventually drawdown in Iraq. In 
fact, I expect an increasing demand for SOF as the local environments 
transition from a larger conventional force presence to smaller train 
and assist activities, especially considering the continuing deficit of 
special operations forces in non-U.S. Central Command geographic 
combatant commanders' areas.
    Therefore, as a result of program decisions of the last few years, 
I am expanding the number of special operators as fast as the command 
can reasonably absorb the growth. In the long term, I estimate that 
three-to-five percent per year is about right for SOF military manpower 
growth. From an equipment standpoint, since much of the equipment used 
by SOF are initially provided by the Services and then modified to meet 
the peculiar operational demands of special operators, it is apparent 
that most of USSOCOM's acquisition programs must be carefully synched 
with the Services. I am committed this year to exploring my options for 
making our acquisition systems more responsive.
    Finally, to address your question about defining success in this 
war, upfront I must admit I'm not convinced there's ever going to be a 
day when we run up the victory flag. This is a different kind of an 
adversary, much more elusive, living and fighting among the people, and 
I don't anticipate that it will lead to signing a document aboard the 
USS Missouri. Our success against al-Qaeda is manifested mostly in the 
growth of Iraqi and Afghan security forces, trained and equipped to be 
responsive to local and regional needs within those nations. Success is 
also a decrease in violent acts, which is a manifestation of a decrease 
in those who are planning every day to conduct those violent acts 
against us and our allies. Success, furthermore, is a dismantling of 
the infrastructure, of the funding lines and the training facilities 
that contribute to that and an interruption of the flow of weapons and 
materials that enable them to conduct those acts. Ultimately, the 
measure of success will be the degree to which those countries facing 
Islamic extremism can become secure and sovereign nations with self-
determination and a functioning government enabled by a growing economy 
existing in a stable region.
    Mr. Smith. Admiral Olson, please explain the typical rotation 
cycles of SOF personnel deploying to the CENTCOM AOR and elsewhere. 
What challenges exist with respect to sustaining such a pace? Are these 
deployment cycles based on unit schedules, or those of individual 
personnel? How common is it for individual personnel to experience more 
frequent deployments?
    Admiral Olson. Special Operations Forces (SOF) personnel rotation 
cycles vary with unit type and mission. Typical rotation cycles for 
Operations ENDURING FREEDOM/IRAQI FREEDOM follow:

        U.S. Army Special Forces (SF) units: 7 months
         Naval Special Warfare (Sea, Air, and Land [SEAL] and Special 
        Boat Units): 6 months
         Air Force Special Operations Command (AFSOC) air crews and 
        support: 3 to 6 months
         Marine Corps Forces Special Operations Command (MARSOC) 
        deployments: 6 months
         Active Civil Affairs deployments: 6 months
         Active Psychological Operations (PSYOP) deployments: 6 to 12 
        months
         U.S. Army Ranger deployments: 4 months

    SOF deployed to Theater Security Cooperation Events (Joint and 
Combined Exercises for Training, Counter Narco-terrorism, Mobile 
Training Teams, Exercises) typically vary from 2 weeks to 4 months.
    Mr. Smith. Admiral Olson, what SOF equipment and resources are 
experiencing the greatest ``wear and tear''? To what do you attribute 
this extraordinary aging? Do you have some thoughts on how to best 
address the situation?
    Admiral Olson. The United States Special Operations Command 
(USSOCOM) has been engaged in continuous and extensive combat 
operations since October 2001. The rapid ``wear and tear'' of Special 
Operations Forces (SOF) equipment is attributed to the harsh 
environmental conditions, battle damage, high operational tempo, and 
the extended length of service that the equipment has been employed and 
deployed in.
    USSOCOM's Rotary Wing (RW) fleet has experienced accelerated aging 
which can be attributed to several factors. SOF RW airframes are 
typically flown at higher gross weights and in tactical environments 
that require rapid and abrupt flight maneuvers to accomplish the 
missions. Flying hour operations tempo and deployment to extreme 
environments have also stressed the entire fleet.
    USSOCOM is addressing the aging SOF RW fleet through aircraft 
retirements, modernization and service life extension programs, and 
increases to the aircraft inventory. Stable funding support for SOF RW 
aircraft modernization and service life extension programs are critical 
to the success of USSOCOM's plan to address the aging SOF RW fleet and 
to keep it flying.
    SOF C-130 flying hours have nearly doubled since 2000 due to 
increased operations tempo. The nature of our SOF Fixed Wing (FW) 
mission and aircraft weight age SOF C-130 aircraft more rapidly than 
non-SOF C-130s. The average age of our SOF C-130s is more than 40 years 
old. Increased flying hours combined with the nature of the SOF mission 
have accelerated wear and tear on critical wing structural components.
    Increased global requirements for SOF have created a pressing need 
to recapitalize the older MC-130's. In addition to this increased 
demand, future growth in the SOF force structure will likely require a 
corresponding increase in SOF mobility and close air support 
capabilities.
    USSOCOM Ground Mobility Vehicles are suffering extreme wear and 
tear due to extensive combat operations and new mission requirements, 
specifically, the additional weight of armor and increased payload. We 
have partially addressed the situation through engineering 
improvements, establishing a RESET facility in Kuwait, and are 
procuring heavy duty suspension systems. Moreover, injection of new 
vehicles, such as the Mine Resistant Ambush Protected vehicle, has been 
of great assistance to USSOCOM and has already saved lives.
    Mr. Smith. Admiral Olson, please comment on the use and 
effectiveness of 12-man Operational Detachment-Alpha Teams (ODAs). How 
and where are they most effective?
    Admiral Olson. The 12-man Special Forces Operational Detachment-
Alpha (ODA) Teams have proven to be one of the greatest force 
multipliers in history. While they are a lethal unit in and of 
themselves, capable of conducting direct action kinetic operations and 
strategic reconnaissance, they are most effective when they work by, 
with and through indigenous forces to defeat the enemy. Special Forces 
(SF) are trained as warriors and diplomats. U.S. Army SF team's small 
size, coupled with their diverse capabilities emphasizes the demand for 
tact and professionalism when operating in the global environment. SF 
also develops and fosters a deeper understanding of the indigenous 
people due to the extremely close and on-going interaction with the 
local populations.
    SF ODAs are most effective in situations and locales where the 
strategic payoff for the U.S. Government is high, but the overt 
presence of U.S. forces must be kept to an absolute minimum. ODAs can 
operate clandestinely if required; their ability to train, equip, and 
if required employ indigenous forces in support of U.S. objectives in 
either the foreign internal defense or unconventional warfare role, 
under the most austere conditions, in the most remote locations in any 
environment, is their forte'.
    Mr. Smith. Admiral Olson, please comment on the cooperation and 
effectiveness of the SOF capabilities of our international partners? Is 
there room for improvement on either side of the relationship?
    Admiral Olson. [The information referred to is classified and 
retained in the committee files.]
    Mr. Smith. What is the best way to ensure appropriate, meaningful 
interagency participation in all phases of operational, contingency, 
and crisis action planning? What is your command doing? What successes 
have you achieved and what challenges have you identified?
    Admiral Olson. The best way to ensure such interagency 
participation is exactly what we are doing now, i.e. continuing our 
established relationships and working our plans that revolve around 
five direct and indirect lines of operation. Initiatives such as the 
Global Synchronization Conference and Interagency Partnership Program 
establish the daily interaction and interagency participation in our 
major planning events. This strategic work forms the foundation for 
gaining success during contingency and crisis action planning.
    Our Interagency Task Forces are examples of success in ensuring 
appropriate, meaningful participation in all phases of an action. Our 
Time Sensitive Planning Process (TSP) incorporates interagency 
participation from the very start of a crisis, even at 2:00 am.
    Despite our advances, there is still a challenge in overcoming the 
bureaucratic inertia to institutionalize lasting change. We may have to 
accept in the short term that some will view current solutions and 
initiatives as temporary and will try to resist any permanent change. I 
believe needed change will be established slowly and patiently over 
many years, but once done, will be the new ``normal.'' As you are 
aware, rushing this process is counterproductive, goes against human 
nature, and often causes even more resistance. We are proud to be part 
of this patient but consistent work to establish meaningful interagency 
participation.
    Mr. Smith. The Irregular Warfare Joint Operating Concept identifies 
eight key risks and associated mitigation strategies. One is that the 
United States government might not develop the interagency integration 
mechanisms necessary to achieve unity of effort at every level. The JOC 
directs DOD to conduct concept development and experimentation focused 
on improving interagency integration. What actions has the Department 
of Defense taken to address the need for interagency integration 
mechanisms?
    Admiral Olson. The Department of Defense continues to integrate the 
interagency into their processes, but recommend the Office of the 
Secretary of Defense provide definitive information on their actions. 
At the U.S. Special Operations Command (USSOCOM), consistent with our 
authorities under the Unified Command Plan and CONPLAN 7500, we have 
established a standing Interagency Task Force (IATF) with USSOCOM 
members and representatives from 12 interagency partners. Additionally, 
USSOCOM has established the Global Synchronization process which brings 
together over 400 participants among the Interagency, Geographical 
Combatant Commands and DOD, Service Staffs and defense agencies to 
integrate GWOT efforts. Both of USSOCOM actions are in concert with DOD 
efforts to support NSPD-44 and the new Interagency Management System.
    Mr. Smith. Please describe the role of Special Forces in fighting 
Irregular Warfare. Do you perceive a need to enhance interagency 
coordination for IW at the operational and tactical levels? If so, what 
type of organizational framework do you think would work best? 
According to the Irregular Warfare Joint Operating Concept, in the 
future, Irregular Warfare campaigns will increasingly require military 
general purpose forces to perform missions that in the last few decades 
have been viewed primarily as Special Operation Forces (SOF) 
activities. How might this change the future mission of SOF?
    Admiral Olson. At the U.S. Special Operations Command (USSOCOM), we 
pursue two mutually supporting approaches--direct and indirect. These 
approaches integrate the requirement to immediately disrupt violent 
extremist organizations while positively impacting the environment in 
which they operate.
    The direct approach addresses the need to counter the immediate 
aggression caused by an adversary, while the indirect approach 
addresses the underlying causes of terrorism and the relevant 
population in which terrorism gains its legitimacy, and while this 
approach requires more time to achieve affects ultimately, will be the 
decisive effort.
    At the operational and tactical level USSOCOM has been successful 
at integrating the interagency through the use of Joint Interagency 
Task Forces (JIATFs) and extensive use of Liaison Officers. While the 
JIATF framework is effective it is important to maintain some degree of 
flexibility as we task organize for a specific operation. For broader 
IW engagement, the Capability Based Assessment (CBA) process is still 
developing nascent initiatives like the TMAAG concept that will help to 
inform this process.
    Special Operations Forces (SOF) will not change its core tasks or 
mission focus, however the increased use of general purpose forces in 
the broader Irregular Warfare environment will allow for greater DOD 
engagement opportunities and focus SOF on the most appropriate 
missions.
    Mr. Smith. The Irregular Warfare Joint Operating Concept proposes 
three alternatives for further development and experimentation that 
would provide models to coordinate interagency command and control: (1) 
extending the Joint Interagency Task Force (JIATF) to irregular 
warfare; (2) establishing IA Advisory Assistance Teams at sub-national 
levels of government; and (3) expanding the use of U.S. Military Groups 
(MILGRPs) to conduct and support IW. Can you explain the pros and cons 
of each approach?
    Admiral Olson. The potential approaches identified in the Irregular 
Warfare IW JOC are being explored as part of the concept development 
and experimentation currently underway by the U.S. Special Operations 
Command (USSOCOM), Joint Forces Command and a number of other agencies. 
Some thoughts are expressed below however a thorough analysis has yet 
to be completed.
    The Joint Interagency Task Force (JIATF) Model has proved to be a 
valuable command and control mechanism for integrating civil-military 
operations in operational areas, but have been historically a short 
term military led organization. JIATF's operate under the operational 
control of the Geographic Combatant Commander and are by definition not 
part of the U.S. Mission (Embassy), therefore not part of the Country 
team which could lead to sub-optimization and over-militarization of 
the ``whole-of-government'' approach to solving or managing the 
political problem in question.
    The IA Advisory Assistance Teams at the sub-national levels of 
government have proven to be successful, but more recent Provincial 
Reconstruction Teams (PRTs) in Iraq have been challenged because of 
insufficient numbers of them, being asked to do too much, inadequate 
civilian manning, inadequate efforts to integrate them, and a 
relatively lower priority than combat units.
    The expanded MILGRP Model could be a long term solution and organic 
to the U.S. Mission, fully integrated into the Country Team, and much 
more likely to subordinate its military activities to the broader 
``whole-of-government'' approach led by the Chief of Mission. Although 
a permanent organization would solidify relationships and allow for 
continuous oversight more effectively, it would require additional 
infrastructure and manning to execute. This model will also likely have 
to function under constraints imposed by both the host nation and our 
own Country Team.
    Mr. Smith. Please describe SOCOM's Interagency Task Force. How does 
it relate to the J-10, which you direct? How does the J-10 interact 
with SOCOM's Global Synchronization Division, which works with the 
National Counterterrorism Center in the war on terror?
    Admiral Olson. The Inter-Agency Task Force (IATF) serves as a 
coordinating activity within the Department of Defense (DOD) and across 
the Inter-Agency (IA). The goal is to be a reliable and connected 
entity that is able to integrate IA efforts while solving discrete 
problem sets that support the global war on terror (GWOT). The IATF has 
developed priorities and focus areas that support US Special Operations 
Command Center for Special Operations (CSO) and its GWOT 
synchronization responsibilities. The focus areas were developed 
through a combination of top down guidance, bottom up and horizontal 
thinking.
    The IATF is functionally organized among two major focus areas and 
several enduring tasks. Major focus area efforts are combating the 
foreign terrorist network (FTN) and expanding USG document and media 
exploitation (DOMEX) capacity. The IATF's enduring tasks include 
counter narco-terrorism, threat finance, persistent surveillance 
requirements, counterterrorism research and analysis, information 
operations, support to the inter-agency partnership program (IAPP), and 
time-sensitive planning.
    The IATF is collaborative and always uses an IA approach to solving 
problems. The collaborative nature of problem solving ensures any 
issues raised are already being staffed while the IATF is working the 
problem. The IATF also leverages other knowledge centers for their 
analysis and input. The IATF embraces competitive analysis, as long as 
it remains focused on solving the problem. Knowledge is the key 
component of synchronization.
    The current organization of the IATF includes a mix of USSOCOM 
operators and intelligence professionals, as well as IA and DOD 
partners numbering 102 military, civilian and contractor personnel. IA 
personnel include members of the Central Intelligence Agency, the 
Department of State, the Department of Treasury, the Federal Bureau of 
Investigations, and the Drug Enforcement Agency. Additionally, the IATF 
has personnel embedded from several DOD agencies, including the Defense 
Intelligence Agency, the Joint Intelligence Task Force--Combating 
Terrorism, the Naval Oceanographic Office, the National Security 
Agency, and the National Geospatial Intelligence Agency.
    The IATF deals with operations, actions, and activities (OAA) 
across all 7500-series operation and concept plans' lines of operations 
(LOO), including those activities that fall within the realm of 
irregular warfare.
    Mr. Smith. What role has SOCOM played in implementation of National 
Security Presidential Decision (NSPD)-44, given its prepotency for the 
civil affairs mission?
    Admiral Olson. The U.S. Special Operations Command (USSOCOM) is 
unique amongst the Combatant Commanders in that we do not own 
battlespace. As a force provider, we support the Geographic Combatant 
Commander's theater specific plans and operations with uniquely trained 
and equipped Special Operations Forces (SOF) forces, including active 
duty Civil Affairs (CA).
    As the Department of Defense proponent for CA, USSOCOM continues to 
develop stability operations-capable CA forces through individual, 
unit, and institutional training of CA core tasks which are fundamental 
to stability operations. The U.S. Army John F. Kennedy Special Warfare 
Center and School at Fort Bragg, North Carolina, have also incorporated 
stability, security, transition, and reconstruction operations (SSTRO) 
training blocks into their curricula. USSOCOM continues participation 
and coordination with the U.S. Joint Forces Command J9 efforts 
pertaining to stability operations, joint concept development and 
experimentation, and supports Unified Action experiments and war games.
    USSOCOM has incorporated stability operations into the most recent 
revision of Joint Publication 3-57, Civil-Military Operations, which 
consolidates the previous Joint Publications for Civil Affairs and 
Civil-Military Operations.
    Mr. Smith. Please describe the nature of SOCOM's ``global 
synchronization'' mission and identify the existing metrics for 
determining its successful execution. What exactly is the focus of 
SOCOM in this synchronization effort? Do the al Qaeda Execution Order 
(AQN EXORD) and/or the ``7500'' Concept Plan (CONPLAN) guide this 
effort? If so, then how?
    Admiral Olson. [The information referred to is classified and 
retained in the committee files.]
    Mr. Smith. Has SOCOM conducted a strategic assessment of radical 
Islamic media-related and education-related penetrations of DOD or 
related U.S. Government organizations and critical institutions? If 
not, is SOCOM familiar with any U.S. Government strategic assessment in 
these areas?
    Admiral Olson. The answer is ``no'' on both accounts.
    Mr. Smith. Has SOCOM conducted a strategic assessment of extremist-
Islamic threat doctrines in order to define possible enemy course of 
action (COA)?
    Admiral Olson. [The information referred to is classified and 
retained in the committee files.]
    Mr. Smith. How precisely does SOCOM's present strategy and approach 
consider the theological underpinnings of Islamic extremism?
    Admiral Olson. [The information referred to is classified and 
retained in the committee files.]
    Mr. Smith. How would SOCOM propose to revise the AQN EXORD if 
directed by the Secretary of Defense? What revisions should be 
considered and why?
    Admiral Olson. [The information referred to is classified and 
retained in the committee files.]
    Mr. Smith. How is SOCOM coordinating with the law enforcement and 
intelligence communities to conduct the GWOT, especially in the CENTCOM 
area of operations (AOR)? What approaches are most fruitful? What are 
the greatest challenges and limitations? What is the role of INTERPOL? 
What is the role of local indigenous law enforcement personnel and 
resources? How do these efforts differ in mainly high-intensity 
``direct action'' environments from more low-intensity or ``indirect 
action'' environments?
    Admiral Olson. Part 1. The SOCOM Interagency Task Force (IATF) 
coordinates and collaborates with the law enforcement community via 
department and agency LNOs that exist in the IATF and Special 
Operations Support Team (SOST) military personnel that reside within 
the respective agencies. Specifically there is one LNO each from the 
FBI, DEA, and Treasury within the IATF. When projects or issues are 
identified, the IATF, via agency LNOs and SOST personnel reach back to 
their respective organization and tie into the appropriate sub-
directorate. IRT the CENTCOM AOR there exist no special framework. 
Close coordination among agency LNOs, SOST personnel, SOCOM IATF and 
CENTCOM action officers exists via the CENTCOM IATF-IW. These 
relationships are matured via close working relationships and daily/
weekly battle rhythm events in which we regularly share effort and 
information.
    Part 2. Approaches most fruitful are as described above. Our 
ability to include as many LEA into the GWOT community interest, and 
focus them on a specific problem set will enable IATF to serve as a 
connecting and synchronizing entity for SOCOM-CSO.
    Part 3. One of the most significant challenges is the ability to 
translate intelligence and information acquired from the battlefield 
and declassify in an expeditious manner so that it can be used in 
either USG law enforcement cases or in within Partner Nation (PN) 
jurisprudence/law enforcement framework.
    Part 4. Interpol is an important organization in which there is 
much dialog among DOD, DOJ and OGA. From the IATF perspective we are 
looking at ways in which we can enable Interpol action via information 
sharing. Information sharing and the declassification issue continue to 
be a significant challenge within the DOD intelligence community.
    Part 5. IRT IATF interface with the Law Enforcement community, 
local indigenous personnel should be a consideration as we look to 
build PN capacity as well as achieving USG and PN goals by, with, and 
through the partner nation.
    Part 6. It is difficult to answer this question without knowing 
specific situational factors. The reply to Part 5 above accurately 
reflects that PN law enforcement personnel and resources are a critical 
tool/mechanism in which we build partner capacity, enhance PN 
legitimacy, and execute and achieve both USG and respective nation 
goals and objectives.
    Mr. Smith. How might the proposed organizational change in the 
respective Military Group (MILGROUP) structure affect SOCOM activities 
in affected AORs?
    Admiral Olson. USSOCOM is currently assessing the Military Liaison 
Element (MLE) program in direct coordination with each Geographic 
Combatant Command and Theater Special Operations Command (TSOC). LTG 
David P. Fridovich, Director, Center for Special Operations provided 
general guidance to TSOC Commanders on an MLE roadmap, and in kind 
received point papers from each Commander. The topic was also 
highlighted at the Sixth Annual Global Synchronization Conference (GSC) 
hosted by USSOCOM from 14--18 April 2008, and will be raised at the 25 
April 2008 GSC Senior Executive Session. Finally, USSOCOM is 
establishing a process by which to assess the total SOF requirements 
for High Priority and Priority Countries of each GCC; this process will 
inform each iteration of the MLE review.
    Mr. Smith. Please identify the resources inherent in the Center for 
Special Operations responsible for mission support to Unconventional 
Warfare (UW) long term persistent operations as opposed to time-
sensitive planning. How are these resources positioned and organized to 
support each respective AOR as identified in the global synchronization 
mission?
    Admiral Olson. The intent of long-term persistent operations is to 
develop capabilities to conduct UW, as authorized, and provide 
potential capabilities and mechanisms to directly support time 
sensitive operations conducted as part of Time Sensitive Planning 
(TSP). Within the CSO (one of six Centers within USSOCOM), J3X Special 
Activities is comprised of global and regional UW desks aligned with 
their respective Global Combatant Commands (GCC) and Theater Special 
Operations Commands (TSOC). This office also provides requisite 
information and visibility into which UW capabilities and mechanisms 
currently exist in each Area of Operation to inform, support or 
complement operational and/or tactical commanders conducting TSP.
    USSOCOM J3 provides oversight, funding management, manpower 
resourcing and equipping to long-term global Unconventional Warfare/
Operational Preparation of the Environment (UW/OPE) and coordinates 
these long-term planning efforts with the Geographic Combatant Commands 
(GCC). USSOCOM also prioritizes the global distribution of SOF's long-
term resourcing and equipping in each GCC, and is currently supporting 
these operational activities in numerous countries with the requisite 
funding and equipment forward-deployed and distributed through 
respective Theater Special Operations Commands.
    Mr. Smith. What is the mission of SOCOM's new J10, the Irregular 
Warfare effort?
    Admiral Olson. The mission of the J10, Irregular Warfare (IW) 
Directorate, is to coordinate the concept implementation, strategy 
development, and plans integration of irregular warfare applications 
within a collaborative network of Department of Defense (DOD) and 
Interagency (IA) organizations to facilitate and support U.S. national 
objectives. By Direction of the USSOCOM Commander, the Directorate was 
established 15 June 2007 to maintain the momentum of IW inititatives, 
synchronize IW efforts with the DOD and IA, and serve as the IW Office 
of Primary Responsibility for the Command.
    Mr. Smith. SOCOM's plan to increase the number of Special Forces 
(SF) Battalions is based in part on a reduction in the size of the SF 
Squad. Does the planned reduction from 9-man to 7-man squads reflect a 
change in the warfighting requirement facing small units? If so, how? 
How does SOCOM envision the smaller squads to maintain a level of self-
sufficiency, especially after experiencing casualties?
    Admiral Olson. No change has been made to the size of the Special 
Forces (SF) Operational Detachment Alpha's (ODA) [SF ODA] or to the 
size of our SF Battalions. We are in the process of adding an SF 
Battalion to each of our Special Forces Groups.
    Within the Companies assigned to each Ranger Battalion in the 75th 
Ranger Regiment, an operational decision was made to reduce the size of 
a Squad from nine to seven men. This restructuring was accomplished 
after an assessment of operational employment tactics in Afghanistan 
and Iraq. Associated with this change in the size of a Squad, was a 
task/organization decision to add a Company to each Ranger Battalion. 
While this overall task/organization restructuring is currently being 
executed in FY08, we continue our assessment of on-going combat 
operations, and may continue to adjust our Modified Table of 
Organization and Equipment (MTOE) to best ensure battlefield success.
    Mr. Smith. What benefit and support is SOCOM receiving from the 
Joint Improvised Explosive Device Defeat Organization (JIEDDO) and its 
``Attack the Network'' efforts? Please provide examples.
    Admiral Olson. [The information referred to is classified and 
retained in the committee files.]
                                 ______
                                 
                 QUESTIONS SUBMITTED BY MR. THORNBERRY

    Mr. Thornberry. General, we had an issue in this subcommittee last 
year about the civil support teams (CST) and how many we needed where. 
I have a chart in front of me that describes some of the different 
organizations that are being created, and, frankly, I am a little 
concerned that there are lots of people who say, ``This is what we 
do,'' and there is a lot of overlap and so forth that is a little 
confusing to me.
    In addition to civil support teams, there apparently are joint 
National Guard (CBRNE) enhanced response force packages, and there are 
Chemical-Biological Incident Response Forces, and there are CBRNE 
Consequent Management Response Force.
    I am not exactly clear what everybody does. I want you to reassure 
me that there are clear lanes in the road, and everybody is not coming 
to the taxpayer for money to do the same thing. If you don't mind, if 
you could get your folks to provide us, what you have started to do, a 
description and who the traffic cop is. Who says this is an assessment 
team versus and then going down.
    General Renuart. The National Guard Weapons of Mass Destruction 
Civil Support Teams (WMD-CSTs) detect and identify CBRNE agents/
substances, assess and advise the local authorities on managing the 
effects of the attack, and assist with requests for other forces (i.e. 
CBRNE Enhanced Response Force Packages (CERFPs)). They are a 22-person 
response unit located in each state and territory (55 total, 53 of 
which are certified) that performs an initial assessment of a CBRNE 
incident. These units are full time, congressionally authorized, 
federally funded, and fall under the command and control of the 
governor.
    CERFPs locate and extract victims from a contaminated environment, 
perform medical triage and treatment, and perform mass patient/casualty 
decontamination. Each of these units is a task force of between 200 and 
400 personnel, composed of an Army battalion or Air Force equivalent C2 
element, an Air National Guard Medical Flight, an Army Chemical Company 
(-) and an Army Engineer Company (-). The 17 CERFPs are congressionally 
authorized, traditional Guard only, with 4-5 full time personnel per 
unit, and are located regionally to provide additional support to the 
WMD-CSTs and the state government. They are capable of decontaminating, 
performing medical triage, and stabilizing 75 non-ambulatory and 225 
ambulatory personnel per hour. The WMD-CSTs and CERFPs support the 
local and state response to an incident and are not under the command 
and control of USNORTHCOM.
    A CBRNE Consequence Management Response Force (CCMRF) provides the 
DOD capability to support the federal response to a request for 
assistance from a state. CCMRFs consist of roughly 4,000 people in 
three force packages that are able to respond to a domestic 
catastrophic CBRNE event. This force is pre-identified from within 
existing DOD force structure and may include the U.S. Marine Corps 
Chemical, Biological Incident Response Force. CCMRFs operate under 
Operational Control of the Commander, USNORTHCOM.
    The following outlines the capabilities of the three force packages 
with additional follow-on forces identified as required:

        <bullet>   Force Package #1 capabilities: Initial C2, Command 
        Assessment Teams, Initial Response Force (Medical, Logistics, 
        Extraction)

        <bullet>   Force Package #2 capabilities: Medical, 
        Decontamination, C2, Transportation and Logistics, Security, 
        Public Affairs

        <bullet>   Force Package #3 capabilities: C2, Transportation, 
        Logistical Support, Mortuary Affairs

        <bullet>   Follow-on Forces: Additional C2, Transportation, 
        Logistics

                                  <all>

</pre></body></html>
